<html>
<title> - REFORMING THE ADOPTION AND FOSTER CARE SYSTEM IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 105-461]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-461


 
   REFORMING THE ADOPTION AND FOSTER CARE SYSTEM IN THE DISTRICT OF 
                                COLUMBIA

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF

                 GOVERNMENT MANAGEMENT, RESTRUCTURING,

                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 1998

                               __________

      Printed for the use of the Committee on Governmental Affairs



                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-903 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
ROBERT F. BENNETT, Utah
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michael Sue Prosser, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              MAX CLELAND, Georgia
                     Michael Rubin, Staff Director
      Laurie Rubenstein, Minority Staff Director and Chief Counsel
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
                                                                   Page

Opening statement:

    Senator Brownback............................................     1

                               WITNESSES
                      Thursday, February 12, 1998

Hon. Mike DeWine, a U.S. Senator from the State of Ohio..........     3
Hon. Charles E. Grassley, a U.S. Senator from the State of Iowa..     6
Hon. Dave Camp, a U.S. Representative in Congress from the State 
  of Michigan....................................................     8
Hon. Rochelle Chronister, Secretary, Department of Social and 
  Rehabilitative Services, State of Kansas.......................    11
Hon. Larry E. Craig, a U.S. Senator from the State of Idaho......    22
Debora Caruth, D.C. Foster Care Parent...........................    26
Gordon Henry Gosselink, D.C. Pre-Adopted Child...................    31
Ernestine F. Jones, LaShawn General Receiver, District of 
  Columbia Child and Family Services.............................    34
Judith Meltzer, Senior Associate, Center for the Study of Social 
  Policy.........................................................    36
Thomas Wells, Executive Director, Consortium for Child Welfare...    39

                     Alphabetical List of Witnesses

Camp, Hon. Dave:
    Testimony....................................................     8
Caruth, Debora:
    Testimony....................................................    26
    Prepared statement, with an attachment.......................    75
Chronister, Hon. Rochelle:
    Testimony....................................................    11
    Prepared statement...........................................    51
Craig, Hon. Larry E.:
    Testimony....................................................    22
    Prepared statement...........................................    23
DeWine, Hon. Mike:
    Testimony....................................................     3
    Prepared statement...........................................     5
Gosselink, Gordon Henry:
    Testimony....................................................    31
Grassley, Hon. Charles E.:
    Testimony....................................................     6
Jones, Ernestine F.:
    Testimony....................................................    34
    Prepared statement...........................................    92
Meltzer, Judith:
    Testimony....................................................    36
    Prepared statement, with an attachment.......................    92
Wells, Thomas:
    Testimony....................................................    39
    Prepared statement...........................................   139

                                APPENDIX

Prepared statements of witnesses in order of appearance..........    51

                       REFORMING THE ADOPTION AND
                       FOSTER CARE SYSTEM IN THE
                          DISTRICT OF COLUMBIA

                              ----------                              


                      THURSDAY, FEBRUARY 12, 1998

                                       U.S. Senate,
        Oversight of Government Management, Restructuring  
                       and the District of Columbia Subcommittee,  
                         of the Committee on Governmental Affairs, 
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:11 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senator Brownback.
    Senator Brownback. The hearing will come to order.

             OPENING STATEMENT BY SENATOR BROWNBACK

    Senator Brownback. I would like to welcome everyone here 
today to this Subcommittee's first hearing on the adoption and 
foster care system in the Nation's Capital.
    I also want to extend a warm welcome to our witnesses who 
come to testify here today, including Kansas Secretary Rochelle 
Chronister of the Department of Social and Rehabilitation 
Services. Rochelle is an old friend of mine that I used to work 
with in State government, who is doing an outstanding job in 
this area in Kansas.
    I also would like to welcome some of my colleagues, Senator 
DeWine who is here and does not normally sit on this panel, but 
has an enormous interest in adoption. I think they are looking 
to adopt more children.
    You have eight children, Mike?
    Senator DeWine. Eight, yes.
    Senator Brownback. Who have been born in four decades?
    Senator DeWine. Four decades, right, the 1960's, 1970's, 
1980's, and 1990's children.
    Senator Brownback. So I think you ought to start adopting 
in the next decades to come. So, when working on----
    Senator DeWine. I will tell Fran that, Mr. Chairman.
    Senator Brownback. But he has had a huge interest in the 
area of adoption and foster care. So I am delighted to have 
Senator DeWine, and I think we may be joined as well by Senator 
Grassley and Senator Craig, who also have a great interest in 
the issue of adoption.
    The adoption and foster care system in the District of 
Columbia is very troubling and has been a disaster for many 
children that have been caught in this system. It is hard for 
me and troubling for me to be able to say that, but, 
unfortunately, in looking at the numbers, I do not think you 
can draw any other conclusion.
    It is no exaggeration to say that there are literally 
thousands of children growing up in foster care within the 
District of Columbia with imminent prospects of becoming part 
of a family. I cannot tell you the exact numbers of such 
children, but estimates range from 2,700 to 3,000 within D.C. 
alone.
    The condition of the adoption and foster care system became 
so critical that it was placed under a Federal Court 
Receivership in 1995, and it is still under that Receivership. 
It still has not made its way out of the Receivership.
    Every year, many children graduate from D.C. foster care, 
that is, they grow up in the foster care system, turn 18, and 
are turned out of foster care and onto the streets.
    In 1994--and this is a very troubling number--67 percent of 
the children who left foster care in the District of Columbia 
left because they turned 18 years old, 67 percent, over two-
thirds. In other words, one of the only ways out of the system 
is to grow up to adulthood within the system.
    Now, to me, allowing just one child to grow up without the 
love, attention, and commitment of a family is a true tragedy. 
Allowing thousands to languish in foster care, unloved and 
unaccounted for, is a disgrace. It has got to be changed.
    I am grateful for those in the D.C. system who are working 
to ensure that those changes are made. There are many holes in 
the public records that must be filled. At this point, I am 
told D.C. agencies do not know exactly how many children are in 
the foster care system.
    Moreover, I was surprised to find out the District does not 
keep track of its foster care children once they have reached 
adulthood. I am also very concerned that 50 percent of the 
District's children who are looking for adoptive homes and are 
under the care of the District's Child and Family Services are 
not referred to the District's Adoption Branch.
    We now have new leadership in place that we will hear from 
today, and I am hopeful that these discouraging realities will 
no longer haunt the children who need the system the most.
    I know systematic changes can be made, like those in my 
home State of Kansas. While still in its infancy, the Kansas 
privatization model of its Child and Welfare Services has shown 
some immediate signs of success. Within 1 year of implementing 
these reforms, Kansas increased the number of children placed 
in adoptive homes from 25 percent to 50 percent. Prior to these 
reforms, the average stay for a child in the Kansas foster care 
system was 2 years. Now the average stay is 13 months.
    While much remains to be done, Kansas has taken some bold 
steps for its children, and I would like to see how my home 
State reforms could help the children in our Nation's Capital.
    Adoption and foster care is also a priority for Congress. 
Last year, Congress passed, and the President signed into law, 
the Adoption Promotion Act. We will have the main sponsor of 
that tes- 
tify today. Congressman Dave Camp will testify first. This act 
speeds up the adoption process throughout the United States and 
places a child's safety first in any adoption case.
    With the new leadership in place in the District's adoption 
and foster care system, the various adoption and foster care 
State reform examples to draw from, and the new Federal 
adoption law, the opportunity for change for the District's 
children is unquestionable.
    I also want to recognize those foster care and adoptive 
parents and their example of taking in these children when they 
need it the most. They do the work of heroes. We need to make 
it easier, not more difficult for parents to adopt.
    Then, finally, I want to stress that in the end, we are 
talking about individual children. We are not talking about a 
system. We are talking about a system that impacts them, and I 
am afraid has impacted them too negatively, At the end of the 
day, what we are talking about is a child, a child who is in 
search of a loving family and a secure home, and any 
improvement in the system that translates into bringing that 
child closer to the fundamental need of having a permanent home 
is something I want to be a part of and want to push forward.
    So we look forward to having a good hearing on this and 
seeing what legislative solutions and changes or oversight that 
we need to be a part of. This will be the focus of this hearing 
and potentially some future ones.
    Senator DeWine, I do not know if you would have an opening 
statement to make.

 OPENING STATEMENT BY SENATOR DeWINE, A U.S. SENATOR FROM THE 
                         STATE OF OHIO

    Senator DeWine. Mr. Chairman, thank you. I do have a brief 
opening statement. Let me first thank you and congratulate you 
for holding this hearing today. I think it was very, very 
important.
    As you have pointed out, last year, many of us in this room 
worked on a bill called the Adoption and Safe Families Act. You 
were very much involved in it. Of course, Congressman Camp, who 
is the lead sponsor in the House, was as well.
    This legislation, which is now law, sought to reform the 
foster care and adoption in the United States. The new law 
contained some very specific reforms designed to, first, 
decrease the amount of time children spend in foster care; 
second, speed up the process of moving them into permanent 
homes. And, finally, the bill was designed to save lives.
    Mr. Chairman, we have all heard of the Latrena Pixley case. 
This is a woman who killed one of her children. The woman was 
then given custody of another child.
    The bill we enacted last year was an attempt to prevent 
tragedies like that one. The purpose of this hearing today, as 
you have outlined, is to discuss some problems of the foster 
care system in the District of Columbia, problems that go, 
frankly, much deeper than the law we passed last year. The 
problems that the District is facing are problems that are 
systemic and are of an historic nature.
    Washington, D.C. is the capital of the world's only 
remaining super power, the capital of our Nation, and, yet, 
right here, literally in the shadow of the U.S. Capitol, 
children are being beaten and abused and killed. They are lost 
in a system that just does not work to protect them.
    Let me tell you one outrageous story that really caught my 
attention. A 13-year-old boy named Eddie was placed in a group 
home by D.C. judges. The group home was too crowded. A worker 
at the group home gave Eddie bus fare so that he could go 
downtown to the Department of Human Services where they would 
presumably make new living arrangements for Eddie.
    Eddie wandered away. Several weeks later, Eddie was found 
dead in the closet of a friend's house. His face had been so 
badly devoured by ants and roaches that the police thought at 
first that he had been badly beaten.
    Mr. Chairman, this incident would be an outrage if it 
happened in Haiti or in some other underdeveloped country of 
the world. But this boy was the responsibility of the 
government of our Nation's Capital. I do not think words can 
express just how awful this is.
    Furthermore, Mr. Chairman, we do not even have a good 
picture of how bad the conditions are in Washington, D.C. and 
you have pointed this out in your opening statement. The 
statistics are out of date, and they are certainly incomplete, 
but the statistics we do have point to a problem that has been 
festering in the District of Columbia for a long, long time.
    Let me give a brief overview of how we got here. In May of 
1995, the District of Columbia became the first city in the 
Nation to require a Federal Receiver for its child welfare 
system. The Receivership was the result of a lawsuit dating 
back to 1989. When that 1989 suit was originally filed, the 
national average for time spent by a child in foster care was 
17 months. In the District of Columbia, however, children 
stayed in foster care for an average of 5 years.
    One-third of the city's child welfare staff positions were 
at that time vacant, leaving some case workers assigned to as 
many as 56 families, including over 125 children. There is no 
systematic program in place to recruit adoptive families, and 
there is a shortage of foster homes, leading to the placement 
of too many children within one home.
    Mr. Chairman, in the most recent progress report filed by 
the Court-appointed monitor, the most recent report, it is 
obvious that the situation has not improved very much. The 
Receiver resigned in June of 1997, and a new Receiver, Ms. 
Jones, was named on October 14, 1997. She faces a major 
challenge. Clearly, the situation that we have now in the 
District of Columbia did not happen overnight, and it will not 
be fixed overnight.
    As someone who is deeply interested in the fate of our 
foster children, whether they are in Ohio or anyplace else in 
this country, I look forward to hearing the testimony today. 
The witnesses will give us firsthand information about the 
barriers these children face, and I hope the witnesses will be 
able to offer suggestions as to what changes need to be made.
    Mr. Chairman, we all know that the District of Columbia is 
in crisis. In general, it is in crisis. And in our Nation's 
capital, we know that the most troubled children are in crisis 
as well. This, in my view, should be the No. 1 priority for 
those dealing with policies affecting the District. Frankly, it 
does not matter if garbage is picked up on time if our most 
precious possession, our children, can be cast aside.
    Again, I thank you, Mr. Chairman, for holding these 
hearings.
    [The prepared statement of Senator DeWine follows:]

                  PREPARED STATEMENT OF SENATOR DeWINE
    Good morning. Let me begin by thanking Senator Brownback for 
holding this hearing, and for inviting me to participate.
    Last year, many of us here worked on a bill called the Adoption and 
Safe Families Act. This legislation, passed by Congress and signed by 
the President, sought to reform foster care and adoption in the United 
States.
    The new law contained some very specific reforms designed to (a) 
decrease the amount of time children spend in foster care, (b) speed up 
the process of moving them into permanent homes, and (c) save lives.
    We've all heard of the Latrena Pixley case--a woman who had killed 
one of her children was given custody of another. The bill we enacted 
last year was an attempt to prevent tragedies like that one.
    The purpose of this hearing today is to discuss some problems of 
the foster care system in the District of Columbia--problems that go, 
frankly, much deeper than the law we passed. These problems are 
systemic, and they are historic.
    Washington, D.C. is the capital of the world's only remaining 
superpower, the capital of our nation. And yet right here--in the 
shadow of the U.S. Capitol--children are being beaten and abused and 
killed, because they are lost in a system that just doesn't work to 
protect them.
    Let me tell you one outrageous story that really caught my 
attention. A 13-year-old boy named Eddie was placed in a group home by 
D.C. judges. The group home was too crowded. A worker at the group home 
gave Eddie bus fare--so he could go downtown to the Department of Human 
Services, where they would presumably make new living arrangements for 
him.
    Eddie wandered away. Several weeks later, he was found dead in the 
closet of a friend's house. His face had been so badly devoured by ants 
and roaches that the police though--at first--that he had been badly 
beaten.
    Mr. Chairman, this incident would be an outrage if it happened in 
Haiti or Rwanda or some other impoverished country. But this boy was 
the responsibility of the government of our Nation's capital. I don't 
think words can express just how awful that is.
    Futhermore, we don't even have a good picture of how bad the 
conditions in Washington, D.C. really are. The statistics are out of 
date, erratic, and incomplete. But the statistics we do have point to a 
problem that has been festering for a long time.
    Let me give a brief overview of how we got here. In May of 1995, 
the District of Columbia became the first city in the Nation to require 
a Federal Receiver for its child welfare system. The Receivership was 
the result of a lawsuit that had been filed in 1989.
    When the suit was originally filed in 1989, the national average 
for time spent by a child in foster care was 17 months. In D.C., 
children stayed in foster care for an average of 5 years. One-third of 
the city's child welfare staff positions were vacant, leaving some 
caseworkers assigned to as many as 56 families including 125 children. 
There was no systematic program in place to recruit adoptive families. 
And there was a shortage of foster homes, leading to the placement of 
too many children within one home.
    Now, Mr. Chairman, in the most recent progress report filed by the 
Court-appointed monitor, it's obvious that the situation has not 
improved much under the Receivership.
    The Receiver resigned in June 1997--and a new Receiver, Ernestine 
Jones, was named on October 14, 1997.
    She faces a major challenge. Clearly, the situation that we have 
now in the District of Columbia did not happen overnight and will not 
be fixed overnight.
    As someone who is deeply interested in the fate of our foster 
children, in Ohio and the rest of America, I look forward to hearing 
the testimony today. The witnesses will give us first-hand information 
about the barriers these children face--and, I hope, offer suggestions 
as to what changes need to be made.
    We all know that the District of Columbia is in crisis. And in our 
Nation's capital, the most troubled children are in crisis. This, in my 
view, should be the No. 1 priority for those dealing with policies 
affecting the District. It doesn't matter if garbage is picked up on 
time if our most precious possesion--our children--can be cast aside.

    Senator Brownback. Thank you for that statement and your 
interest in this topic, and I would note to those in attendance 
that both Senator DeWine and Senator Grassley do not serve on 
this panel, but it is because of their interest that they are 
willing to give of their time and energy to focus on this 
topic.
    Senator Grassley, did you have an opening statement you 
would like to make?
    Senator Grassley. If I could, please.
    Senator Brownback. Yes, sir.

OPENING STATEMENT BY SENATOR GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. It is a privilege to be a guest of the 
Subcommittee. Thank you Senator Brownback for inviting me to 
participate
    We all care about the future of kids currently in foster 
care and so I commend you for providing Congress one more 
opportunity to further educate ourselves so we can 
constructively help children.
    We are all aware that the District of Columbia's foster 
care system is in crisis--that means kids are hurting.
    I want to take this opportunity to congratulate Ernestine 
Jones on her recent appointment as the new Child Welfare 
Receiver. Mrs. Jones has an incredible task ahead of her, and I 
trust that she will use her front-line experience and her 
administrative background, to be effective in this new role.
    I also encourage her to put children's needs first in every 
decision that is made.
    From my work over the last 24 months on foster care and 
adoption reform I learned that there were a lot of 
considerations in the forefront of what ought to be done for 
kids in foster care yet these considerations were not 
necessarily always those that put the needs of the child first.
    I found that last year, during the foster care debate, the 
Members, who kept in mind they were serving children, were able 
to secure solid policy to help kids.
    I am very interested in her long-range vision of these 
children. In the District, at least 35,000 children are not 
living in permanent homes. I have heard estimates ranging from 
3,000 to 7,000 children are wards of the City. The kids are 
living their childhoods out in foster care. For many, this is a 
lonely, even futile transition.
    I was alarmed when I read that in 1993, 70 percent of the 
District's foster care and adoption cases were closed because 
the child had turned 18 and ``graduated'' from the system. Now, 
what kind of future is that for kids? I would like the Court-
Appointed Monitor to tell this Subcommittee what the most 
current statistics show.
    There are currently at least 110 children who are legally 
free to be adopted in the District and hundreds more who would 
be if families were identified. We have to combat this attitude 
that some children are unadoptable, and as far as I am 
concerned, no kid is unadoptable. And that is true for the 
hundreds of children here in the District as well. We just have 
not found a home for them yet.
    I encourage organizations like the District of Columbia's 
Adoption Unit to dispel this unadoptable myth here in the 
District. Because of the efforts that are being made, children 
can find the best permanent living arrangement--a loving, 
nurturing, committed family.
    I understand that in 1997, just a handful of people at the 
Adoption Unit, working against all odds, was able to more than 
double the number of adoptions since the previous year. If this 
small group, determined to protect the children, were able to 
do this, imagine what could happen if we all focused our 
efforts to find children families.
    The District is going to have to prioritize their 
resources. I read with concern that just a few years ago, the 
City was not adequately funding an advertising and recruitment 
project to find homes for the children. Funds for this program 
are very critical and very basic to getting kids into homes and 
finding families. I would like the Court-Appointed Monitor to 
tell us the current condition of the advertising and 
recruitment project here in the District of Columbia.
    In my own State, we have a project, the KidSake Project. 
They recruit parents for children and prove that even in the 
most challenging of circumstances they are able to find 
appropriate families for these kids and have been dramatically 
increasing Iowa's record for special needs adoption.
    Mrs. Jones, Congress spent the last year addressing the 
Nation's foster care crisis. While we were doing that, right 
here, in our own back yard, thousands of children were 
languishing in the District's system. The Adoption and Safe 
Families Act should be a great guide and a blueprint for you as 
you work to reform the District's system.
    I was told that the District has artificial boundaries 
imposed by the Court which prevent adoption by families outside 
of a certain radius. The new law breaks down unnecessary 
geographic barriers facing adoptive families and encouraging 
creative adoption efforts made on behalf of the children.
    Ms. Meltzer said in her testimony today that the agency 
must engage in timely permanency planning so that children are 
quickly and safely either reunited with families or helped to 
find a stable and permanent adoptive home.
    I agree, and this addresses my concern about a statement 
that she made in the Washington Post on May 4, 1997, she said, 
``I think we know that kids need families, and really, in the 
long run, they will do better with their own family than if 
they are given a substitute. No matter how great the adoptive 
family, kids, I think, want to be with their own families. So I 
think it is in the child's best interest to give a second 
chance, and a third chance, with all the supports.''
    Now, that mind-set was the reason Congress enacted reform 
last year. And the new law, as Congressman Camp has stated, 
places the utmost importance on the health and safety of the 
child above everything and everyone else.
    One last issue, I am concerned that Mayor Barry may be 
trying to get out from under the Court order governing foster 
care. A few years ago, his administration tried unsuccessfully 
to persuade the D.C. Council to amend the City's foster care 
law to obtain relief from a Court order. I also read that the 
District was considering rewriting local laws to get out from 
under Court orders in four class-action lawsuits governing 
services to foster care. The City is currently running a 
surplus. I suppose that is pretty negligible when you have the 
problems the City has. Yet, the Adoption Unit is terribly 
under-funded to meet the needs of children awaiting parents. I 
hope this surplus is not at the expense of these children.
    The District could be a pilot project for dramatic reforms, 
and I know that Senator Brownback is wanting to help through 
his work as Chairman of this Subcommittee. I understand that he 
and the witness from Kansas Department of Social and 
Rehabilitation Services will highlight the success of that 
Kansas is having in serving their children.
    I congratulate you, Senator Brownback, and thank you for 
asking me to participate.
    Senator Brownback. Thank you for being here and for your 
interest and for your support of what I consider just a 
critical issue.
    Congressman Dave Camp is our first witness. He is the 
author of the Adoption and Safe Families Act, which was signed 
into law last year. He has worked extensively on the issues of 
adoption prior to being elected to Congress and has certainly 
had a personal commitment once in Congress.
    Congressman Camp, welcome to the Subcommittee. We are 
delighted to have you here.

TESTIMONY OF HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Camp. Thank you, Chairman Brownback. Thank you for the 
opportunity to testify before the District of Columbia 
Subcommittee, and I also want to acknowledge your interest in 
leadership in this issue and thank you for holding this 
hearing.
    I also want to acknowledge Senators Grassley and DeWine who 
have shown a great deal of concern and have put forth a great 
deal of effort on this issue, on the issue of adoption as well. 
You and many people in this room played a vital role in the 
enactment of the Adoption and Safe Families Act.
    I am pleased to be here today to discuss this new law and 
what it means for our children. As everyone knows, the law we 
enacted does make changes to our Nation's adoption laws, and 
that represents the culmination of 2 years of effort, which 
were based on a very simple principle, and that principle is 
our children come first.
    When we began the reform process, we consulted with people 
who had been involved with adoption and foster care in order to 
try to get the best legislation possible. The new law provides 
guidance to States and encourages them through incentives to 
achieve more adoptions, and with these changes, we have given 
children a chance to become part of a permanent loving family.
    First, this new law places the utmost importance on the 
health and safety of the child, and that, of course, was 
Senator DeWine's very specific contribution to this 
legislation.
    We have heard over time many stories of children being 
returned to abusive homes only to face continued mistreatment. 
This new law will ensure that everyone involved in helping the 
child places his or her health and safety above all other 
concerns.
    Second, the new law provides clear examples of when States 
would not be required to pursue reasonable efforts when 
reuniting a family, such as cases of murder, rape, or severe 
abuse. Those require special attention, and States should be 
able to quickly move a child who has suffered these atrocities 
or whose family these atrocities have been committed in into a 
safe and permanent home.
    The bill also provides incentives for States to move 
children into adoptive homes. Foster care was intended to be a 
temporary answer, not a permanent solution. We have statistics 
that indicate our Nation's foster care children spend far too 
long in these temporary settings, and under this new 
legislation, States will be rewarded for permanency placing 
children in permanent loving homes.
    Another important step taken in the bill is to establish a 
specific time period which States must begin to take concrete 
steps toward adoption, and over the years, it has become 
apparent that time limits may, in fact, benefit children in 
foster care. The law will ensure that every child is given the 
chance of moving into an adoptive home within a reasonable 
period of time as opposed to remaining in long-term foster care 
situations.
    Obviously, the goal of the law is to make adoption easier 
and more frequent. Adoption is good for children. The reason is 
simple. Nearly every adoptive child is put in the middle of the 
best child-rearing machine ever invented, the family.
    Children reared in families, especially two-parent 
families, grow up to do well on nearly every single measure, 
marriage, employment, education, avoidance of crime, and 
independence from welfare.
    Given our current system and with the long stays in foster 
care, our bill simply requires States to begin the Court 
procedures to terminate parental rights after 15 months, and 
that will ensure that no child languishes in foster care while 
the system struggles to either reunite the family or to try to 
find a permanent home.
    We have all read the reports which illustrate the 
importance of stability and permanence in a child's early life, 
and the longer the child waits to have the experience and 
stability of a permanent home, the more problems a child may 
have when growing up.
    Our law represents an effort to make these changes, and, 
obviously, as we have heard and said before and as the Chairman 
mentioned, these are not about reports or statistics or new 
programs. This is obviously all about children, and each and 
every one of us here has an interest in helping our children. 
Some have adopted children. Some have had their own. I think 
that we find that we all are trying to work together to try to 
repair broken homes or to try to find a permanent home for a 
needy child.
    So, by working together, I think we can build on these 
accomplishments and continue to improve the future for our 
children in America, as well as in the District of Columbia. 
They deserve nothing less, and I appreciate the opportunity to 
be here and testify and would be happy to take any questions.
    Senator Brownback. Thank you, Congressman Camp, and 
particularly a great thanks for what you did this past year in 
the adoption law that we were able to put through, and, 
hopefully, that is going to do something across the country to 
encourage more adoption and sooner so that the children can be 
taken care of in an earlier fashion.
    We have a whole series of panels that we are going to put 
forward. I think that rather than submitting or asking you 
questions, what I would invite of you, since you have worked so 
much in this area of adoption, is if you or your staff see or 
think of things that we ought to be considering or doing 
specifically in the case of Washington, D.C., either from your 
experience in Michigan or from working on this issue 
nationally, I would plead to you to get that to us as we try to 
craft what is the best response. How can we do this in the 
District of Columbia? We are going to have this hearing today, 
mostly informational and trying to gather input from various 
places, but, if you come across things you think could be 
helpful, I would invite your help.
    Mr. Camp. I would be happy to do that.
    The Governor signed 10 new bills into law, which take 
effect April 1, and so we are going to be following this in our 
State as well. I would be happy to report back what our 
experiences are.
    Senator Brownback. Good. Thanks.
    Mr. Camp. Thank you.
    Senator Brownback. Do any other Subcommittee Members have 
any questions?
    Senator Grassley. Congressman Camp, I think the answer 
would be yes; however, but just let me suggest to you that the 
principles we applied the last 24 months on legislation 
affecting the Nation as a whole, would be applied to D.C. 
Hopefully this would solve the problems in D.C. as we have some 
States that had terrible problems and terrible records as well. 
Right?
    Mr. Camp. A resounding yes.
    Senator Grassley. Yes.
    My other comment would be an admonition. Sometimes when we 
get legislation passed, we tend to forget about cooperative 
working relationships. We also tend to forget about the 
legislation we passed.
    You and I and a lot of others that were involved in that 
task have the responsibility to make sure through oversight 
that the legislation works out the way that we intended.
    Mr. Camp. I know that in the Subcommittee, Chairman Shaw 
has agreed to continue to hold hearings on various aspects of 
the legislation we passed, and so I will commit to continue to 
follow that and do what I can to make sure that what we did was 
right, and if there are any other things we need to do, that we 
do them.
    Senator Grassley. Yes.
    Senator Brownback. Thank you very much, Dave. I appreciate 
it.
    Mr. Camp. Thank you, Mr. Chairman.
    Senator Brownback. I really would appreciate your input as 
to specifics of what things you may come across.
    Mr. Camp. Thank you.
    Senator Brownback. Thanks for your effort and your 
interest.
    Senator Brownback. Our second panel will consist of the 
Hon. Rochelle Chronister. She is Secretary of the Department of 
Social and Rehabilitation Services for the State of Kansas, and 
I will admit a bias. She is an old friend, a trusted friend who 
has been in various positions in State government, and is very 
responsible. I also will say I have traveled around the State 
after the changes have been made in Kansas, and most people are 
not hesitant to complain if they do not see things going right. 
People in Kansas have been saying things are going well and 
children are being put in homes, permanent homes, and they are 
being joined with families. I think that is just a great 
testimony.
    Rochelle, thank you for traveling to Washington to talk 
about the experience in Kansas and perhaps what we might learn 
here from your successes and failures that you have experienced 
in Kansas. Welcome.

 TESTIMONY OF ROCHELLE CHRONISTER,\1\ SECRETARY, DEPARTMENT OF 
      SOCIAL AND REHABILITATIVE SERVICES, STATE OF KANSAS

    Ms. Chronister. Thank you very much, Mr. Chairman. I do 
appreciate the opportunity to be here and to visit with you and 
the other Senators also as to what it is that the Kansas 
experience has been over a period of not really much longer 
than the last year and a half. So we are not really into the 
process very far.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Chronister appears in the 
Appendix on page 51.
---------------------------------------------------------------------------
    As we have visited with other States--we held a symposium 
in November attended by 34 other States and Puerto Rico--who 
were interested in the privatization process that took place in 
Kansas, there were a number of questions that we are always 
asked, and I would like to kind of start off quickly with 
those.
    The first one is, was this something that you are doing to 
save money, and the answer to that is a resounding no. It had 
nothing to do with saving money.
    If we do happen to save some money in the foster care 
system, we have asked the Governor to reallocate that money 
into the front end, into the investigations and prevention end 
of child abuse.
    The second one is, if you are trying to reduce the number 
of social workers, I think that is also a no; that we think 
that ultimately, for the entire system to work, not only the 
State system, but also the private system, there will have to 
be more social workers involved, and that we have to look to 
see what we can do to recruit additional social workers to the 
system.
    If you want to help protect children, if you want an 
opportunity for social workers to concentrate on investigations 
of child abuse or if you want children to achieve a permanent 
home as quickly as possible, then I think Kansas can bring some 
things to the table that might be useful also here in D.C. and 
what it is that you are doing.
    I would like to go through the packet that I brought with 
me rather rapidly, and I am not going to do all 23 pages, but 
only on those I think you will probably want to hear about. I 
would answer questions on some of them a little later, also, if 
you would like.
    The first page really outlines what it is that the 
privatization of the Kansas child welfare system covers. When 
we started the system, the idea basically was to look and see 
how we could do a better job of the investigations, of the 
front end, of making a determination to see that children were 
safe.
    In that, we also decided what it was that we needed to 
continue to do at SRS in Kansas, and on the left-hand, you will 
see the investigation, the Child Protective Services, Family 
Services, and Case Management were the things that we 
determined it was probably best for the State to continue to 
do.
    Then, in cooperation with our not-for-profit partners, as 
you will see, we started the privatization process in July of 
1996 with Family Preservation. We divided the State of Kansas 
into five regions. For those of you who might not be as 
familiar with Kansas, Kansas is 400 miles wide by 200 miles 
long, and the western part of the State probably has more cows 
than people in it. So we had services being delivered across 
the State unevenly. The eastern part of the State had a lot 
better service delivery system.
    One of the other things that we wanted to do was to ensure 
that services were available all the way across the State of 
Kansas. We wound up with five contractors in the five regions. 
In adoption, which began in October, 1996, we went out once 
again for bids, and we were surprised, frankly, and a little 
alarmed when we had only one bid, but as we looked at that bid, 
we found that 13 non-profit major adoption agencies in the 
State of Kansas had all come together, and they had submitted a 
cooperative bid with Lutheran Social Services taking the lead 
for the services to be provided.
    As we looked at what it was that they were suggesting they 
wanted to do, we were very pleased, and we have found that that 
has been a very positive thing to have had happen.
    On the 1st of October, we transferred 730 children. As we 
look back on it now, we should have taken a little more time to 
make the transfer. That created kind of a mob scene in just 
simply the paperwork transfer, if nothing else, where we 
believe if we had taken a little time over a period of 2 to 4 
weeks, it probably would have made more sense.
    Finally, what my Commissioner of Children and Family 
Services is inclined to call ``the grandmother of them all'' 
was the Foster Care Privatization contract, which is also a 
reintegration contract.
    We got a little smarter this time. We took 3 months in 
order to transfer the children. We broke it down into several 
different categories. We had gone with the five regions, again, 
this time. However, we found that two of the regions were won 
by the same contractor. So we wound up with only three 
contractors; once again, non-profits.
    One of the main reasons we had gone to dividing the State 
into the regions was because we were concerned that our not-
for-profit organizations might not have the financial resources 
to take on a very large project, even if we could help them 
with some up-front money. What we were asking them to do was 
something that they had never tried to do in the past.
    It also required a reorganization for many of them of their 
services and how they went about the entire process of 
delivering services.
    We transferred almost 3,500 children in that 3-month time 
period, and as new children were coming into the system, we 
were also transferring them directly to the foster care 
organizations.
    One of the main things that we wanted to do with our new 
system was to make it outcomes-driven. We felt like that was 
the way that we needed to go about ensuring that things were 
happening for children that were positive.
    We had a focus on permanency. We made our contractors 
responsible for when the determination was made to return a 
child to the family. They continued to be responsible for that 
child for 6 months after their return to the family, and if the 
child comes back into foster care, they do not receive an 
additional payment. So this means that while they have pressure 
to return the child to the family, if the decision is made to 
return them too early, that can also have a financial impact on 
the contractors. So we believe they have been very careful 
about ensuring at what time they recommend that reintegration 
for a family take place or, by the same term, for the severance 
of parental rights and for the child then to be available for 
the adoption system.
    We also wanted to integrate our social workers. We had had 
social workers who had become specialists in a lot of areas. As 
a result, one child might have five or six different social 
workers, but nobody was really responsible for what was 
happening in the life of a child. So we, as much as possible, 
now, when a child is assigned a social worker at the 
investigation end and if that child stays in the system all the 
way through to adoption, it will be the same social worker with 
that child. We have called that social worker, frankly, ``the 
champion of the child.'' In other words, that is his or her 
responsibility to see what it is that is happening, to make 
positive steps towards a permanent decision for the child.
    We also wanted to create an atmosphere of partnership with 
our outside organizations, and to promote creativity among 
delivery of services.
    Because we have three different contractors delivering the 
foster care services, we also had the opportunity for them to 
come up with some different ways of how they might go about 
doing that, and they have shared ideas among themselves so that 
now they have pretty clear ideas as to what direction they need 
to go and what it is that they can do.
    As I said, one of the things that we wanted to do was 
utilize our current providers in Kansas. We also had people 
come in to bid on some of the contracts from the outside, but 
the winning bids--and it turned out to be both in terms of a 
monetary and what the people who reviewed the bids believed 
were the best processes for what it was that should take place, 
turned out to be within Kansas. So we were pleased with that.
    This is not a managed care system, but there are some of 
the same kinds of themes. It is outcomes-based. There is pooled 
funding to allow the contractors' decisions based on clinical 
need and not on the funding streams. There is a case rate, and 
there is also continued responsibility for the family and the 
child post-achievement of the goals.
    Mr. Chairman, beginning on page 5, there are some fact 
sheets telling things like how many SRS positions were 
affected. We did have about 200 positions that were affected 
over the three different privatizations. However, we put a 
hiring freeze on. Nobody lost their job as a result of 
privatization in Kansas. The hiring freeze allowed people, if 
they wanted to remain with the State, to move into open 
positions that were probably at least equivalent and sometimes 
actually even better positions with the State.
    So, as we planned for what it was that was going to take 
place, that also gave us an opportunity to allow our social 
workers and clerical people who were working in these areas to 
also plan for where it was that they were going. We thought 
that was very important because it allowed them to concentrate 
on the process.
    Was it easy? No, it was not easy. It's never easy when you 
make vast changes, and this was a vast change in what it was 
that was taking place in child welfare in the State of Kansas. 
However, we believe that the outcomes indicate that 
particularly in family preservation and in adoption, very 
positive things have happened in the State of Kansas, and you 
have our outcomes further back in the packets for what it is 
that has happened.
    Foster care, we believe is also positive, but we, frankly, 
do not have the results yet to show that. The anecdotal 
evidence--and, frankly, I am not a proponent of anecdotal 
evidence in any way, shape, or form--would indicate that while 
there are problems that still exist, most of them are working 
better over time. Many of the difficulties, as our contractors 
have assumed some responsibility, particularly for some of the 
reports to the courts, indicate that they did not have the 
realization of what not getting a Court report done means when 
you stand before a judge. However, I believe that they are very 
quickly learning and that we are working through those 
difficulties, also.
    Just to finish quickly, some of the indirect consequences 
that we found were that there were new relationships created 
between government and the private sector. Massive amounts of 
ongoing training were needed. You cannot just say, ``OK, we 
have trained everybody. Now we are going to go on from there.'' 
We found that there were many, many times when we needed to go 
back and train and retrain and train again.
    A high level of competition developed among our providers, 
and that was rather a surprise to us. We had not anticipated 
that, but we see it as being a positive situation.
    There was a great deal of foster parent confusion. We did 
not do a very good job of helping our foster parents understand 
what it was that was taking place, and we would certainly go 
back if we were doing this again to ensure that the foster 
parents had a better understanding of how the system was 
changing and what it was because they had some long-established 
relationships that were no longer able to be maintained.
    Also, we found that there was a lack of social workers in 
the State. When I made that decision to freeze hiring in order 
to ensure that State workers would have a job with the State if 
they wanted it, frankly, I did not take into consideration the 
contractors who had hoped to hire a number of those people who 
were not going to be working for the State any longer.
    I was concerned about the people who worked for me, and I 
probably should have taken those contractors into consideration 
because they had a difficult time finding trained social 
workers who were used to dealing with Child Protective 
Services.
    One of the barriers that we have that I would like to 
mention to you all would be the potential loss of Title IV-E 
funds because the majority of the Title IV-E dollars are, of 
course, dedicated to foster care. As our foster care rolls come 
down, we lose that money out of the State from the Federal 
level that we would like to be able to put into the front end 
of our system and increase preventive services.
    In closing, I would like to mention also our continuous 
quality improvement tool, which is kind of a fancy name for 
saying we have hired an outside researcher to look at what it 
is that we are doing while it is taking place, not to wait for 
5 years and then say, ``OK, Kansas did this but you could have 
maybe done this to improve the system.''
    We have just hired within the last few days that 
organization, which is entirely separate from Kansas. We made 
the decision that it would be better if it was not one of our 
universities, so there could be no indication that we were 
trying to influence the system, and we have just had that 
contract signed and we are ready to go forward now with an 
investigation of what is it that is happening and how can we 
continually change the system to make it better. That is James 
Bell and Associates.
    That is, in a nutshell, what it is that is happening in 
Kansas. On pages 12 to 15, you have our Family Preservation 
measures and outcomes; 16 to 20, the adoption; and on 21 to 23, 
the limited amount that we have on foster care.
    Senator Brownback. Thank you very much, Rochelle. It is 
quite an impressive set of results and numbers that you have 
here, and I appreciate it, I know, all the work and the effort 
that you have put in to making this happen. Any time that you 
make these sort of changes, you have to be somewhat nimble that 
once you make the major change, you have got to be willing to 
adjust to fit what happens.
    Ms. Chronister. Yes.
    Senator Brownback. So we want to learn from those 
adjustments, too.
    I will first go to Senator DeWine for some questioning of 
the Secretary.
    Senator DeWine. Thank you, Mr. Chairman.
    Let me just say, I found your testimony to be absolutely 
fascinating, and I have a number of questions. I am not going 
to have enough time to get to all of the questions. I will try 
to keep my questions brief, if you can try to be as concise as 
you can in your answers.
    Ms. Chronister. I will do my best.
    Senator DeWine. I appreciate it very much.
    A basic question, I am sure it is in the testimony, but I 
do not quite get it. How much of what you do has been 
privatized? I mean, everything from, at the one end, trying to 
find adoptive homes to, at the beginning, investigating alleged 
child abuse, when the report comes in. How much of this whole 
pie has been privatized?
    Ms. Chronister. I would say roughly a third of it.
    Senator DeWine. Which third is it again?
    Ms. Chronister. It is really the back third with the 
exception of--it is after the investigation and the 
determination really is made of the fact that a family needs to 
have some assistance.
    Senator DeWine. After you have made the initial decision 
they need assistance. So the follow-up then has been 
privatized.
    Ms. Chronister. Yes.
    Senator DeWine. Is that right?
    Ms. Chronister. Yes.
    One of the things that we found was that we believed that 
our social workers were involved in things that were not 
productive, and one of the main ones was that as I talked to 
social workers--and I would say I am not a social worker. A 
long time ago, I was a research microbiologist by training. So 
it is kind of a shock to me sometimes to try and figure out 
what is going on, but one of the things that we found was the 
many telephone calls when a child came into the custody of the 
Secretary and that child is then ready to be placed, a social 
worker would make 10, 15, or 20 phone calls to say we have X-
child and they have these kinds of problems and they are this 
old and do you have a place for them, and, unfortunately, too 
many times the answer was no or that child is not appropriate 
maybe or we will take the child, but it will be a short term 
and then you are going to have to place him or her somewhere 
else within the next few days.
    So they were spending a lot of nonproductive time; that now 
when they make that phone call, that one phone call to a 
contractor, and the contractor then places the child.
    Senator DeWine. OK, but the original, let us say, filing an 
action in court----
    Ms. Chronister. We do that.
    Senator DeWine [continuing]. You do that.
    Ms. Chronister. Yes.
    Senator DeWine. You make the initial appearance in court.
    Ms. Chronister. Yes.
    Senator DeWine. Then after that----
    Ms. Chronister. And we still continue to make an appearance 
in court.
    Senator DeWine. You still do overall--you are ultimately 
legally responsible.
    Ms. Chronister. Yes, we are still basically responsible. 
Yes. We are definitely still responsible for the child.
    Senator DeWine. The buck stops with you, ultimately.
    Ms. Chronister. Absolutely.
    Senator DeWine. That is the public accountability part of 
it.
    In Kansas, how many children are in the Kansas child 
welfare system today?
    Ms. Chronister. On the child-in-need-of-care system and not 
the juvenile offender--SRS still have some hand in the juvenile 
offenders, although that is passing to a different authority 
and we are kind of in the midst of that, but there are around 
4,000 children who are actually in the custody of the 
Secretary.
    Senator DeWine. Noncriminal cases?
    Ms. Chronister. Yes.
    Senator DeWine. About 4,000?
    Ms. Chronister. Right in that vicinity.
    Senator DeWine. That would now give us kind of an idea of 
what we are dealing with.
    Can you give us a brief summary of what you think the 
highlights are of this as far as what you have learned after a 
year and a half, as far as what the results have been? I know a 
year and a half is not very long.
    Ms. Chronister. That is right.
    Senator DeWine. It is not very long, but in a preliminary 
60 seconds, what has changed?
    Ms. Chronister. One of the things that we have found is 
that families appear to be happy with the Family Preservation 
changes. We have had a very low percentage of families who lose 
their children after they have gone into Family Preservation, 
and those services were not available all the way across the 
State. They are now.
    The second thing would be with adoption. Probably, the 
single thing besides just simply the increase in the number of 
adoptions and placements that are preparatory to adoptions 
would be that we are talking about an increase in the number of 
minority adoptions, as well as children who are 6 to 13 or 14 
years of age. That is pretty significant.
    Senator DeWine. To get that--and, again, I apologize. I 
think I missed it in your testimony. I mean, do you put a bonus 
or a premium on adoptions? In other words, you are talking 
about outcomes-based. How do you reward the contractor for 
results in regard to adoption?
    Ms. Chronister. We have not--we have discussed that as 
being maybe the next step. Our contracts were set up for 4 
years, renewable each year.
    One of the things that we are considering would be maybe a 
bonus at the end for successful completion. We did not do that 
to start with.
    In our foster care system, however, one of the things we 
did was a sharing of risk the first year. In that sharing of 
risk, it was that if our contractors were 10 percent above what 
we had agreed to pay, then we would go in and help pay, if they 
came in 10 percent below, which incidentally none of them did, 
they would share the money back with us, but the risk pool for 
the first year was to try and help determine what it is that is 
going on. We have changed that on the second year, and we no 
longer have a risk pool. It was also partly because of the 
start-up of the system.
    Senator DeWine. Even without a bonus system, you have seen 
an improvement in adoptions. Is that my understanding?
    Ms. Chronister. Yes. [Nodding head up and down.]
    Senator DeWine. And it is significant?
    Ms. Chronister. A 25-percent increase, total.
    Senator DeWine. That is significant.
    Ms. Chronister. Yes.
    Senator DeWine. Tell me what the downside is to doing what 
you have done, and let me specifically direct your attention to 
a statement that you made. I am not sure I wrote it down 
correctly, but you said they do not get paid anything extra if 
the child comes back into the system. Playing the devil's 
advocate here, if you create an economic incentive to do one 
thing, how do you get an objective decision that does not put 
the child at risk?
    In other words, one of the arguments for the current system 
is no one makes money no matter what happens. In other words, 
it is theoretically at least the case worker out there and is 
neutral and makes a decision based on what he or she is seeing, 
but if you build an economic incentive in the system to do 
anything, don't you skew the results that way, and isn't it 
possible that in some cases that would endanger a child?
    Ms. Chronister. I think that what we would see was that in 
the past, the incentive for providers has been to keep their 
beds filled.
    Senator DeWine. Right, I agree.
    Ms. Chronister. This is no longer an incentive where you 
receive a certain amount for a child. We will provide you 
with--and I have to admit right now that I cannot remember 
whether it is 25 percent when you receive the child or whether 
it is 50 percent, and it probably says in the material. And 
then we pay again at 90 days and we pay again at 6 months.
    Senator DeWine. Excuse me. When you receive the child?
    Ms. Chronister. Yes, whether it is in foster care of 
whether it is an adoptive child.
    Senator DeWine. OK. Play it out with me. They then have 
this child in foster care.
    Ms. Chronister. Yes. [Nodding head up and down.]
    Senator DeWine. OK. Now let us say the child has returned 
to their parents. That has been worked out. Where does the 
money flow after that?
    Ms. Chronister. It is a set amount and you receive that set 
amount whether it takes you 6 weeks to return the child to 
their parents, or whether at the end of a year and a half, 
there has been a severance of parental rights and the child 
goes into the adoption.
    Senator DeWine. OK. Let us say the child has returned, and 
then let us say--we will make up our facts here. Let us say the 
facts would then indicate it is not working.
    Ms. Chronister. The child comes back into care, and the 
provider is responsible under their initial contract still, 
without additional money coming.
    Senator DeWine. But is the provider involved in determining 
whether that child comes back into care, or do you separate 
that?
    Ms. Chronister. No.
    Senator DeWine. OK. So that is your protection.
    Ms. Chronister. That is right.
    Senator DeWine. You build a firewall there. You all are 
making the decision the kid has got to come back----
    Ms. Chronister. That is right.
    Senator DeWine [continuing]. And they have got to basically 
eat it in the sense of the money.
    Ms. Chronister. Yes.
    Senator DeWine. So they are not making that decision based 
on their economic interest.
    Ms. Chronister. That is correct.
    Senator DeWine. OK.
    Ms. Chronister. Now, they may make a recommendation to us 
that the child should be returned or that the child should be 
returned to the family.
    Senator DeWine. OK. One last question. My time is up, but, 
Mr. Chairman, I appreciate your indulgence very much.
    You mentioned on page 3 that one of your goals is to 
promote creativity. Do you want to give me a couple more 
examples of that? What is the creativity that you have seen in 
the private sector that has come back in the last year and a 
half that maybe you were not seeing in the old system?
    Ms. Chronister. I think that part of what it is that we 
have seen would be the reorganization of the contractors to 
deliver the services. They have had some of the same 
difficulties that the State has had in that this is a system 
that is totally in charge of a centralized organization or are 
they better off to have regional delivery systems, how do they 
need to go about delivering their training. Training. I cannot 
even begin to emphasize how important training is in order to 
see that the contractors and the people who work for them have 
a complete understanding of what they need to do. That is 
really the kind of creativity.
    Senator DeWine. And does that mean that they have figured 
it out it is in their economic interest to have the training 
and they have actually invested the money in the training? Is 
that what you mean?
    Ms. Chronister. Yes. Or, we will help them train.
    Senator DeWine. Or, you will help them train.
    Ms. Chronister. And we are doing a lot of that.
    Senator DeWine. Why did it take going to privatization to 
figure that out?
    Ms. Chronister. I do not think that it did because we did a 
lot of training internally already, but I think that, Senator, 
it has been kind of interesting. I was a member of the Kansas 
House of Representatives for 17 years and sat on the 
Appropriations Committee. So I had a view of what it was that 
was going on in SRS before I came to the agency.
    One of the things that everybody kind of poo-pooed was how 
much work was really done by a social worker and by the agency. 
Everybody came in and beat up on SRS all of the time. I mean, 
it was standard operating and they are an easy target, frankly.
    After we started privatizing some of this, it was very 
interesting to hear people come in and say to us, ``We do not 
know how SRS ever did this and how they covered everything and 
how they paid for it in the time frame,'' and the initial 
reaction the first year from some of our advocates was they are 
not doing it as well as SRS did, and we said, ``Whoa. Hello? 
For the last 20 years, you have been yelling at how poorly SRS 
did all of these things.'' So that was kind of an interesting 
sideline of what it was that happened.
    Senator DeWine. Kind of a reality check.
    Ms. Chronister. That is right.
    Senator DeWine. Good. Thank you.
    My time is up. Thank you, Mr. Chairman, very much.
    Senator Brownback. Thank you. Thank you very much.
    Rochelle, you have heard about the numbers in the District 
of Columbia system and the length of time and the number of 
children that graduate out of the system without ever being 
placed and the length of time it is taking to place children in 
foster care. If you were in the legislative position here now, 
how would you start off attacking this problem, legislatively? 
What would you look at? And then I would like you to devolve 
back to your authority and administrative branch of it. Then 
how would you look at it?
    Ms. Chronister. I think that one of the things that I would 
say is quit trying to manage the system from where you are 
sitting. Now, that is not something you much want to hear, but 
having sat on both sides, I find that I can get a lot more work 
done, and my folks can, too, if you will let me actually do it 
instead of coming in every 30 days and saying, ``Well, let us 
do something different with the system.'' Let them present a 
system to you of what it is they really believe can happen and 
how they can go about making those changes and give them a 
little time to see that it is going to happen.
    I have a legislative Post-Audit Committee that I have to 
keep talking to, to keep them from starting a post-audit on my 
foster care system that has only been in effect for 9 months 
now. It takes a great deal of time to deal with the questions 
that an audit wants to know about, and my folks need to be 
allowed and I believe the District's people need to be allowed 
to run the system for a while.
    There will always----
    Senator Brownback. Let me ask you right here, if I could.
    Ms. Chronister. OK.
    Senator Brownback. Did you propose a legislative agenda of 
legislation that needed to be changed for you to be able to 
come forward with the proposals and the changes that you did?
    Ms. Chronister. No.
    Senator Brownback. You could do all of that within the 
framework of the laws you have?
    Ms. Chronister. Yes.
    Senator Brownback. OK.
    Ms. Chronister. And I would say, also, that you have every 
right to look and see what it is that is happening. I do not 
say for an instant that you do not, but give them a chance to 
make it work, that that is very important, without just beating 
up on people all the time.
    Unfortunately, no matter what we do, there will always be 
children who will be abused. It is in our best interest, and 
``our'' being the people of the United States, to try and 
divert as much as we can to prevention activities and to have 
an opportunity to see what it is that works in that area, also, 
and for that, I would refer you to the State of Vermont and my 
counterpart, Con Hogan, who probably has one of the best 
systems I have ever seen.
    Senator Brownback. Now put your administrative hat on.
    Ms. Chronister. OK.
    Senator Brownback. You are head of the D.C. Foster Care and 
Adoption Programs.
    Ms. Chronister. I think that, as I said, the opportunity to 
put the system together. It took me 6 months in Kansas, which 
is the State I have lived in all of my life, had a great deal 
of experience in what the systems were and a pretty good level 
of trust in me personally before I was even ready to make that 
first step, which was figuring out what it was that we needed 
to do to improve the system in Kansas.
    We have a great need to have instant gratification all over 
this country in nearly every area, and a system that has been 
broken for years cannot be fixed overnight. So I would just 
urge you to support your administrator, to hear what it is that 
she says to you needs to be done, and to let her present you 
with a plan to do that.
    Senator Brownback. We will be able to hear from our 
administrator next. We have been under Court order, as you 
know, here for years in Washington, and, yet, the problem has 
continued, and so that is why it continues to get lots of 
people very concerned.
    Ms. Chronister. But that is true almost everywhere in the 
country. Nearly every child welfare system in the country is 
either under a Court order or a settlement agreement. I think 
there is something like 30 States that are involved in that, 
including Kansas, and I think that one of the things that 
people are beginning to realize is that may not be the best way 
to go about fixing a system that it has not worked; that the 
people within the system sometimes are tied into old ways of 
doing things as a natural result of the process that took place 
at the time that that Court order or settlement was put into 
place and are not given the opportunity to really look to the 
future and to find new and more positive ways of doing things.
    Senator Brownback. Let me pose this to you. If we have a 
67-percent graduation rate, what should we set that objective 
to be?
    Ms. Chronister. I do not know because I am not sure what it 
was in Kansas, but we do have children--we have had and we 
still have children who age out of the system in Kansas.
    Senator Brownback. What is your objective now, though?
    Ms. Chronister. Our objective is to reduce the amount of 
time to a year that a child is in the system with the 
potential, although we run a dual-track system now, for 
severance of parental rights or re-integration of the family, 
so that it does not take us as long. If we do not know what is 
going to happen and whether or not the family can kind of get 
their lives reorganized so the child can go back to them, we do 
not lose all of that time, as we also prepare for what happens 
when there is a severance of parental rights. So we run the 
system as a dual system in Kansas now, and we think that will 
reduce the time that a child has to spend in the custody of the 
Secretary.
    Senator Brownback. Clearly, 5 years is too long.
    Ms. Chronister. Absolutely.
    One of the things that I have said since I came to this job 
is that a week in the life of a child without a family and 
without a permanent placement is probably the same thing as 2 
or 3 months in the life of an adult because a child cannot see 
what the potential outcome is. All they know is what is 
happening to them today and the fact that they are no longer 
with their family.
    I am a believer in the absolute protection of the children, 
and that has to come first before the preservation of the 
family, but it also means that we have a real responsibility to 
determine as quickly as possible what the permanent solution is 
for that child.
    Senator Brownback. Did you work with the private sector in 
crafting your proposals, your bids that you had put out, and 
the parameters that you had put those bids out in?
    Ms. Chronister. We did. We worked with them. We gave them 
as much information as we could come up with, and then we had 
questions and answers. Once the potential RFP, the request for 
proposals went out, then we had limits and we did not 
individually answer questions, but questions were sent in to 
us, and parts of the proposal were modified as results of the 
answers that were given to everybody on those questions.
    My commissioner, Teresa Markowitz, who spoke before the 
Congressman's Committee, is the one who put together a great 
deal of that in cooperation with our Department of 
Administration, where they had expertise in how you do bidding, 
but they had really no expertise in how you bid social 
services. So it had to be truly a team operation, and we are 
very pleased with the way that came out.
    We have reams and volumes of information that we will be 
happy to share with anybody, and as I said, we had a conference 
November 1 where we had 33 States and Puerto Rico. I believe we 
had one Canadian Province there, also--that we kind of called, 
``The Good, the Bad, and the Ugly of Privatization,'' and what 
we would do again and what we would not, in which we were 
absolutely honest with people in telling them this is what we 
think we did right, this is what we think we did wrong, here is 
all of our materials, and we did provide them with everything 
that they wanted. We would be happy to continue to do that.
    Now, we kind of did it because we had so many people 
calling and saying, ``Come tell us about what it is that you 
are doing,'' and we finally had to say, like I said to you all, 
``Go away and leave us alone and let us do it, and then we will 
give you everything we know,'' and that was what we did, 
Senator.
    Senator Brownback. Thank you. I will leave you alone. 
[Laughter.]
    I want to welcome Senator Craig here, who also is not a 
member of this panel, but because of his deep interest is here 
today, and I appreciate his attendance and interest in passing 
the adoption bill last year and helping us here on the 
District's problems.
    Senator Craig.

TESTIMONY OF HON. LARRY E. CRAIG, A U.S. SENATOR FROM THE STATE 
                            OF IDAHO

    Senator Craig. Rochelle, I will leave you alone because I 
did not have the opportunity to hear your full testimony, and I 
will read it. I have your charts, and I appreciate it, but in 
your response to both Senator DeWine and Senator Brownback, you 
have made several comments that are intriguing to me and I 
think very important. I say that in the backdrop of what we 
have done here in the last 12 months with the passage of the 
Adoption and Safe Families Act.
    Let me ask unanimous consent that my statement become a 
part of the record, Mr. Chairman.
    [The prepared statement of Senator Craig follows:]

                  PREPARED STATEMENT OF SENATOR CRAIG
    Let me thank you, Mr. Chairman, for holding this very important 
hearing and for allowing me the opportunity to participate. I know you 
have put considerable energy into promoting adoption and foster care 
reform in the District of Columbia, and I think we all hope this 
hearing will help the efforts underway in D.C. by Ms. Jones and many of 
our other panelists.
    The challenge that the District faces is truly formidable. However, 
as we were reminded last year when we were working on the Adoption and 
Safe Families Act, individuals and communities are capable of 
astonishing achievements in the name of protecting their children.
    The new law wasn't intended to place new burdens on an already 
overburdened child welfare system. Instead, we tried to establish clear 
standards and performance measures along with the tools and incentives 
that local governments need to meet them.
    It continues to be the strong belief of many in Congress, including 
myself, that the most effective and creative solutions for community 
problems generally come from the people who know the most about them--
that is, local citizens and units of government. The State of Kansas 
has adopted what some people are still calling a ``radical'' 
experiment. I understand that the District of Columbia is also 
exploring the potential of public/private partnerships. I think we need 
to continue to do what we can here in Congress to encourage that kind 
of innovative problem-solving at the local level.
    All of us here today are concerned about the welfare of the 
District's at-risk children. Although I do not serve on this 
Subcommittee, I share the Chairman's interest in helping to find 
workable solutions to the problems D.C. has been trying to overcome for 
so many years. With the kind of energy, talent and commitment we see 
here today, it is not far-retched to hope for success that will make 
the District's child welfare system a model for the Nation.
    Although I probably will have to leave part way through the 
hearing, I look forward to reviewing all the testimony presented today, 
and the suggestions and observations that our excellent panelists have 
for us.

    Senator Brownback. Without objection.
    Senator Craig. When you talk of training and the value of 
training, one of the things I think I am concerned about as we 
work with everyone to change the system is to change the mind-
set of the old system to a newer, different system, and I 
suspect that training there will become an important factor. 
Would you agree with that?
    Ms. Chronister. That is correct, Senator.
    Senator Craig. In your training, not only in developing the 
skills of the individuals involved, was that a factor in the 
training, was to change the mind-set of the SRS and people of--
--
    Ms. Chronister. Yes, that is, and, also, for the social 
workers who remained with us, to understand their new role. 
That their new role was a monitoring role, that they were no 
longer in charge of where that child went, and that was very 
difficult for some of them because they have a lot of personal 
interest in the children.
    Senator Craig. One of the things that was pleasing last 
year to me as we worked through this, no one was out to condemn 
anyone in the current system versus a new system because we all 
recognize the tremendous amount that people gave, but the 
outcome was our frustration. You mentioned putting the safety 
of the child first. That is exactly what we recognized had to 
be done. Senator DeWine really pushed aggressively for that and 
appropriately for that, and I think that is what it has to be. 
Our system was biased in a different direction up until we have 
changed it now.
    The one-year goal that you have for a child in the system, 
is that going to be achievable?
    Ms. Chronister. It is moving down rapidly already. It was 
about 2 years, and now it is just a little over 13 months. So 
we believe it is achievable.
    Part of it, Senator, that we believe you helped us 
tremendously on as far as particularly the adoption, but also 
the mind-set change that you all talked about, where some of 
the time frames that you put on the judiciary, where we have 
sometimes had difficulty getting our cases heard.
    Senator Craig. Those are tough choices----
    Ms. Chronister. They are.
    Senator Craig [continuing]. But necessary ones within the 
law, in the protection of the child.
    Mr. Chairman, I have no more questions or comments, other 
than I think you are wise to suggest to us that we leave it 
alone and watch it.
    One of the jobs we should do, though, I believe is to 
monitor----
    Ms. Chronister. Yes.
    Senator Craig [continuing]. Because we are not absolutely 
sure that what we did and what is now in the new law is 
absolutely right, and we are never that sure. We have to work 
these things out and monitor them and have some level of 
measurement and indices of measurement as we move through this 
to make sure that the outcome is exactly what we had or as 
close to as possible what we had anticipated.
    Mr. Chairman, let me thank you for this hearing and working 
with the District of Columbia. I hope those who are here 
today--and I am not going to be able to stay for all of their 
testimony--do not feel threatened by this because that is not 
the intent of anyone here, and it is certainly not our intent 
in working with all of the parties involved in our changes last 
year, but it was to make the system better. The idea of 
children being in the system as long as many of them have been, 
it is just we cannot accept that any longer as a society, I do 
not believe, and, yet, you are right abuse will continue and we 
will have those who will ultimately graduate out of the system, 
no matter what we do, but I think if we can bring these numbers 
down.
    By the way, your apparently being able to do it in Kansas 
and do so with the adjustments in the law that we have made and 
us monitoring it and developing a trust and a relationship so 
that those folks out there are willing to come to us and say, 
hey, this is not working right, we need some fine-tuning, then 
I think in the end, we will all be much better off, but, most 
importantly, the children will be.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Brownback. Yes.
    Senator DeWine. Mr. Chairman?
    Senator Brownback. Yes.
    Senator DeWine. If I could ask just one additional 
question.
    One of the concerns that some of us have is that as we 
change this system, that the funding mechanisms set up by the 
Federal Government does not get in the way of what you want to 
do and what other States want to do; in other words, that it 
does not prohibit it or make it more difficult.
    You mentioned in your testimony that the Title IV-E 
funding--you were experiencing some loss there, and because you 
are just doing it differently and you have a different 
emphasis. I wonder if you could elaborate on that, and if you 
could, explain to us where you think you are going to be in a 
year or 2 years or 3 years. In other words, is this going to 
get to be such a problem with the funding that it is going to 
stop you from doing what you are doing or make it more 
difficult? Just where does all that come into play? Because 
policy follows money.
    Ms. Chronister. Right.
    Senator DeWine. I mean, policy is impacted by money, and 
you may want to do something, but if the money is not there, 
you have got to make tough choices, and if the Federal 
Government in some way sets up a system that makes it 
counterproductive for you to do that, then maybe you will not 
be as innovative or bold as you want to be. Could you just 
comment a little bit on that?
    Ms. Chronister. I would be happy to. I think that what you 
have done as far as the new adoption bill and the bonuses that 
you have given to States is a very positive step.
    I think that as far as we are concerned, as our cases drop, 
which we believe they will and we are seeing some of that take 
place, the loss of the Federal part of the funding, because 
children are no longer in foster care, could mean that some 
States or some entities might be concerned and not do some of 
the things.
    I know that there has been discussion with the Congressman 
when he wrote the bill last year and put it together as to 
whether there was some way that we could move together to see 
that some of that funding transferred into that front-end 
prevention piece.
    Kansas is dedicated to going ahead with the process as it 
is, no matter what. I have a Governor who is very supportive of 
issues that involve children, part of it because he has a 2-
year-old adoptive child which has made a real difference in his 
life and which he will say that and has often publicly, but I 
think that it could very easily happen that the money saved 
would be lost. Being a former Appropriations Committee Chairman 
and knowing what happens when there is a loss of Federal funds 
and things are tight in a State, you could see a loss of funds 
to the system. If it could even be a partnership for every 
dollar that was reduced from the system as a result in the 
reduction of the regular Title IV-E funding, a State would be 
allowed to keep 50 cents of it and use it for prevention, and 
would be the kind of a thing which would give both sides a 
break and also encourage States to continue to go into the 
laboratory of the States and do some innovative positive kinds 
of things.
    Senator DeWine. Mr. Chairman, I realize this is a Finance 
Committee issue, and we always have to be very careful about 
this, but I just think this is something that we have to 
continue to monitor and be very concerned about because I think 
everyone agrees we need to move to sort of front-load this and 
to deal with prevention, as our witness has testified so very 
eloquently. We need to make sure that the money flows there and 
follows that and allows the States to do what they want to do 
and allows them to be innovative and bold and to try to deal 
with the front end of the problem instead of the back end.
    Senator Brownback. And they are good suggestions that we 
can take on forward.
    Senator DeWine. Thank you very much.
    Senator Brownback. Thank you very much, Rochelle. As in 
every conversation I think I have had with you over the years, 
you have always both educated and trained and sometimes chided 
me, and all were needed and useful and good clarity on the 
issues. Thanks for what you have done in Kansas for the 
children.
    Ms. Chronister. Thank you for the opportunity to come and 
testify today. I really have enjoyed it.
    Senator Brownback. Good. Thank you.
    We need to make an adjustment in the program and move from 
panel three to panel four, if we could, because panel four has 
some children in it that, frankly, they need to get back to 
class. So we have gone longer than we should have.
    If we could welcome up panel four, Debora Caruth, and she 
is a District Foster Care parent, and then also we have Gordon 
Henry Gosselink, a child who has been placed with his pre-
adoptive parents that are here to testify as people that have 
worked within the system, been in the system, and what comments 
they have about the system. So we are delighted to have both of 
you here with us today.
    Debora, you might want to introduce who you have there with 
you, too. We did not have her on the program.

   TESTIMONY OF DEBORA D. CARUTH,\1\ D.C. FOSTER CARE PARENT

    Ms. Caruth. Good morning. My name is Debora Caruth, and 
this is Chantice, my foster daughter.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Caruth appears in the Appendix on 
page 75.
---------------------------------------------------------------------------
    Senator Brownback. Oh. How old is Chantice?
    Ms. Caruth. Chantice is 3 years old. She was coached to say 
that, but as you see----
    Can you tell them how old you are?
    Senator Brownback. How old are you?
    Chantice. Three.
    Senator Brownback. There we go. We are getting that down. 
Good. You are a beautiful girl.
    Ms. Caruth. I would actually like to have Chantice be taken 
out of the room because of the nature of my testimony. I would 
not like her to hear a lot of the different things.
    Senator Brownback. Absolutely.
    Ms. Caruth. But I did want to introduce her and show you 
what a wonderful child she really is.
    Senator Brownback. Chantice, we have some toys that the 
Senators play with out in the hallway, if you would like to go 
and have those. [Laughter.]
    Thank you for bringing her.
    Ms. Caruth. Since I am the adult on the panel, I guess I 
will start.
    Senator Brownback. Yes. We would like for you to go first. 
Please feel free, too, to just testify from your heart. We can 
take your written statement into the record, or you can present 
it however you would choose to go.
    Ms. Caruth. As you see, I made a rather lengthy written 
statement, and I did so with the intention of people reading it 
and seeing the detail of a life of a small foster child within 
the system, as well as a foster parent, what you go through if 
you are at all an aggressive foster parent or a foster parent 
who has the time, maybe the resources to be able to take on a 
small child like this, especially by yourself.
    I would like to start off by saying that I am a resident of 
the District of Columbia, and I am also an attorney at the 
Department of Justice. In my statement, I point out that as a 
resident, I do not have any representation in the Senate, and 
so my presence here, I hope, is with the understanding that the 
elected representation of the District of Columbia will be 
included in any type of reform.
    I am more than honored and privileged to be before you 
today and to have someone address the issues because they are 
pressing. They were pressing before I, certainly, came into the 
system, and, unfortunately, they have been pressing a long 
time, but I do believe that the people of the District of 
Columbia and the elected representation of the District of 
Columbia need to be part of the system. And I was very pleased 
to hear several statements to the effect that it must be an 
inclusive process.
    I became a foster parent mainly because I consider myself 
to be a successful person. I am from a very large, close-knit 
family. We are all doing very well, and I found this to be an 
opportunity to come forward and to, what everyone says, ``do 
their part for the system, do their part for the children.''
    As a first-time foster parent, I do not want to judge the 
entire system. Chantice is my first foster child. She has been 
with me for almost 2 years now, but I do not have other 
experiences to draw on, and I do not want to make the entire 
system into my story, although because I believe my story is so 
ordinary and not extraordinary--I do not have a child who was 
used as a pin cushion, as we have all heard recently, or the 
parents have not murdered other children--but I believe my 
story is ordinary enough that it sheds a light on what the 
system is today.
    I also want to echo the comments made by the lady from 
Kansas that the Receiver, now a new Receiver, needs the 
opportunity to be able to work with the system and implement 
change and progress.
    I would like to stress two points with the foster care 
system as I see it as a foster parent. One is the best interest 
of the child, the best interest and safety and well-being of 
the child seems to me to be woefully under-served. I do not 
know how it got to this stage. I do not believe social workers 
come into this line of work with the thought that they will not 
be able to help children or that they are not helping children, 
in fact, but I believe that at this point in the system, either 
the social workers do not have time to put the care of the 
child first or it is just not happening. It has just broken 
down. It does not work. The children get the short end of the 
deal.
    My second point that I would like to stress is that foster 
parents need support, and aggressive foster parenting should 
not be discouraged, which is what I found. I found hostility. I 
cannot even tell you. You can read my statement. The abuse of 
foster parents or just the lack of concern about the time and 
consideration that a foster parent expends is just not taken 
up, and in that--I will speak to it a little later, but in 
that, I include the types of support from your job and 
everything to get and maintain--recruit, maintain, and keep 
good foster parents. I think we would all like to see that.
    I would like to see my friends take up the banner and 
become foster parents, but after what I have been through, I do 
not believe that I can really go advocate that to them and ask 
them to do that.
    Senator Brownback. Could you just build on that without--I 
mean, we can read it in the record, but what example is the 
epitome of where you feel, as a foster parent the system just 
fought you and was a system that you could not recommend your 
friends to be a part of? Do you have one example that is the 
epitome of it?
    Ms. Caruth. There are lots of examples. I believe my real 
turning point was when I planned a week vacation for myself and 
Chantice in Tucson. Actually, for me, it was going to be more 
of a business deal, but it was at a resort and it had child 
care, several pools, and I was actually born in Arizona, not 
far from Tucson, and I was looking forward to taking Chantice 
back there.
    I made all of the arrangements to do this. I sent the DHS a 
form that they required you to fill out to be able to take a 
child out of a 50-mile radius of this area. I had done this on 
several occasions.
    Chantice has been to Florida, Nebraska, and Colorado. I 
took her to Barbados last summer. Each time, I filled out the 
form. I sent it to the DHS office, and I never heard anything. 
And I went on the travel. There is nothing else to do.
    The final time that I did that, the trip to Tucson, I sent 
the form and I did not hear anything. I made all the 
arrangements, and the Friday before I was to leave the 
following Sunday morning, the social worker called my office 
and left a message saying that I would not be able to take 
Chantice. DHS did not approve for me to take her on the travel.
    Of course, I was upset. I called the social worker. I asked 
him what was going on, and he told me that I would not be able 
to do that. He said that would cut into the right of her father 
to have his weekend visitation.
    I asked him to speak to his supervisor, and I asked for the 
name of that person's supervisor because all my plans were set 
and I saw no reason for this not to happen. And after I asked 
for the supervisor's name, he informed me, a bit reluctantly, 
that an emergency hearing was scheduled for that afternoon at 4 
p.m.
    I took off from my job at 4 p.m., went to the hearing. It 
turns out that the social worker, the day prior, had had an ex 
parte meeting with the judge, informed her of things that can 
only be labeled falsehoods about my trip and about what I was 
trying to do, and the judge and everybody present, it was clear 
to me, staged the hearing to let me know that they would not 
tolerate the type of be- 
havior that I was displaying, which I think was mainly 
aggressive foster parenting.
    The lowest point for me as a foster parent was when the 
social worker stood in court and the judge allowed him to 
address me, ``Ms. Caruth, don't you ever threaten me.'' I took 
that to mean that because I had asked to speak to his 
supervisors, he took that as a threat, and I was not allowed to 
take Chantice to Tucson that week. She was required to spend 
the week with her father. She had never spent that much time 
with him.
    I was happy to hear the person from Kansas say the amount 
of time in a child's life is treble--what we would normally 
think of. A week for her in that situation is quite a long 
time, and no consideration whatsoever was given to her being 
thrust in this situation for that time despite my having told 
her of our impending trip to Tucson. And that was despite 
several faxes that I had given to the social worker stating the 
maternal grandmother's belief that Chantice's father was 
currently using drugs.
    I hired a private detective the week that Chantice was with 
her father, and the story was not pretty and it was one that 
kept me upset the entire time that I was in Tucson, but that 
type of behavior from the system, it just--as a foster parent, 
you just do not understand. If the child is going to be 
reunited with the family and the family is never going to be 
able to take her out of this 50-mile radius, what was 1 week in 
her life as opposed to the father missing a weekend visit?
    Senator Brownback. Give me in your own words what you think 
the system should do to encourage more responsible foster 
parents applying and being a part of the system.
    Ms. Caruth. I think the social service agencies need to 
work more closely with the foster parents. For instance, that 
was one example, but I have had numerous occasions where I was 
not informed that they were picking up Chantice and taking her 
to a visit, or that they were not picking her up, or where I 
was informed at the last minute that the plans were changed and 
that I needed to pick her up.
    I tried to get communication going so that--let me know so 
that I can also let you know. Maybe she is not going to be 
there that day. You just cannot walk into a day care center and 
pick her up because maybe she has a doctor's appointment that 
day. I tried to get as much stability into her life as 
possible, and it just seemed like there was no communication. 
Foster parents do not see the file. They are not informed of 
Court dates. They do not know what is going on, and even now I 
sit here as an attorney who has now been to several of the 
hearings. Even now I still have never seen the file.
    The last hearing, an emergency hearing, before Chantice's 
father's visits were ended, I received no notification 
whatsoever.
    The other thing that I would like to point to is job 
constraints. I know that right now the law allows for people 
who adopt kids to go into court.
    Senator Brownback. Chantice is back here in the room.
    Ms. Caruth. The law allows adoptive parents to go to court, 
go to meetings, do what they need to do to adopt a child and 
take the time from work to do it. There is no situation like 
that for foster parents right now.
    My sitting here right now constitutes me taking a day of 
annual leave. Just yesterday, I got a letter from DHS to renew 
my license to become a foster parent. I have to take Chantice 
for a physical. I have to have a physical, and they need to do 
a home visit. All those things, I have to take my own personal 
leave, annual leave, or sick leave for the physicals and go out 
and do that. On numerous occasions, I have had to go to court. 
I have been called in by the D.C. Foster Care Monitoring Unit, 
all those types of things. It would be nice if employers, 
especially the Federal Government, were encouraged to allow us 
to do just as they allow volunteers to go into schools and read 
to students or become tutors. They allow them to take time from 
work to do that. It would be extremely helpful in my opinion if 
foster parents were given that same type of encouragement.
    The three proposals I had--and I saw that the Receiver had 
also proposed the same thing, so I was very happy to see that--
was having a Court system where the judges want to hear these 
cases, where the judges know the law and want to hear the cases 
and are interested in the best interest of the child, and I see 
the Receiver has also proposed that. I would encourage that 
type of system.
    On top of that, for best interest of the child, I think you 
can go to--I have talked to judges in other States, including 
my home State of Colorado. I clerked for a judge who tells me 
the guardian ad litem system is woefully inadequate. I would 
not believe there is a State in the country where guardian ad 
litems are monitored at all.
    I believe in the 2 years that I have had Chantice, the 
guardian ad litem has been to my house, I would not believe 
more than four times. One of the times, Chantice was asleep. 
They do not have any monitoring. There is nothing that is 
really making them advocate for a child, and so, in the 
courtroom situation, in my instance, you had a mother and her 
Court-appointed attorney, a father, his Court-appointed 
attorney, a grandmother, her Court-appointed attorney, the 
social worker, and the D.C. Corporation Counsel, if they chose 
to attend, and the guardian ad litem, myself and my retained 
counsel.
    The guardian ad litem stands there and, with no knowledge 
whatsoever of what is going on in the life of the child, makes 
recommendations, and I mean that literally, without ever having 
talked to me prior to the hearing, will make recommendations 
about the best interest of that child.
    So what I would like to see is some type of Child Advocate 
either within the Corporation Counsel system, but a head 
attorney who looks into child care issues, these abuse and 
neglect cases, and who guardian ad litems's report to, to make 
sure that people are standing in front of the Court and letting 
them know what the child is going through. I should not have to 
retain counsel to do that as a foster parent, but that is what 
I have had to do, and I currently have an attorney on retainer 
to do just exactly there.
    With that, I am happy to take questions or let my young 
friend----
    Senator Brownback. I will tell you what we may do is, to go 
with Gordon at this time.
    Gordon, thank you for coming here.

  TESTIMONY OF GORDON HENRY GOSSELINK, D.C. PRE-ADOPTED CHILD

    Master Gosselink. Thank you.
    Senator Brownback. Why don't you let us know what is on 
your mind?
    Master Gosselink. The first thing I would like to say is 
good morning, and thank you for inviting me to come tell you a 
bit about myself and my experience as a foster child and my 
life now.
    My name is Gordon Henry Gosselink. I am 13 years old. When 
I was 2 years old, I was put into foster care with my older 
brother, Joseph. Over the next 10 years, I lived in many 
different foster homes, sometimes with my brother, sometimes 
not. Some of the foster homes were good, but some of them did 
not work out very well.
    Even though I was young, I moved around quite a bit. At the 
time, I did not know what adoption was, but I did know I wanted 
to be in a family where I was loved and treated nicely forever.
    When I was older, I understood what adoption was, and I 
wanted to be adopted. It took a long time, and I was worried 
that I would not get adopted. So, at times, I was sad and 
lonely. I asked my foster mother all the time when was I going 
to get--when was I going to be adopted.
    Last year, I met Rob and Mary Beth Gosselink at a Christmas 
party. When my social worker told me that two people were 
hoping to adopt me, I was really excited. I knew that this was 
the one.
    I moved with Rob and Mary Beth last year at Easter time, 
and now I am part of the Gosselink family. Things are really 
great now. I am in seventh grade at Sligo Middle School. I have 
lots of friends. I like my neighborhood, and I am doing well in 
school. Best of all, I am with a family who loves me forever.
    My parents now are adopting another boy named Ricardo who 
is 11 years old. I am looking forward to having a new brother. 
I know there are a lot of kids who are still waiting for a 
home. I hope they find homes, too, like me.
    Thank you.
    Senator Brownback. Thank you.
    Where is your brother, Joseph?
    Master Gosselink. Right now, he is placed in a group home--
it is called Taylor Manor--because he is having some problems 
in school with his behavior. So he will be in there for a 
couple of months, and then he will be out and live with his 
foster parents again.
    Senator Brownback. Do you get to talk with Joseph a lot?
    Master Gosselink. Oh, yeah. I get to see him often, and I 
talk to my mom, too.
    Senator Brownback. What was it like for you those years 
going to--you said 10 years.
    Master Gosselink. It was some rough times. I got whipped, 
and I got abused. I got yelled at. My brother, he got hit in 
his eye with a glass. It was tough.
    Senator Brownback. What would you do when things like that 
would happen to you, or your brother?
    Master Gosselink. I would either just stand there and get 
whipped or I would either just yell out and scream. I would 
just run. I would just like run off, run around the house.
    Senator Brownback. Were you able to tell anybody afterwards 
when----
    Master Gosselink. Oh, yeah. I told my social worker, and he 
told me to lift up my shirt and he saw some whips on me. So 
then that is when they immediately took me out of this foster 
home.
    Senator Brownback. Were you the one that pushed--did you do 
the pushing to be adopted, or was somebody advocating for you?
    Master Gosselink. Yeah. I kept asking my social worker, can 
I please be adopted and when was I going to be adopted, and Rob 
and Mary Beth, they really pushed hard.
    At one time, it was like they were not sort of like doing 
anything, and I was just getting so worried that I were not 
going to get adopted, but now they pushed really hard. A week 
later, I heard that I was getting adopted.
    Senator Brownback. Do you know if your social worker had 
been pushing for your adoption earlier? Did they talk with you 
that they were----
    Master Gosselink. Oh, yeah. She said she was. She said she 
was trying, and I believed her, but I still like wanted--I did 
not care about--I was not really listening to what she said. I 
just wanted to be adopted.
    Senator Brownback. Yes. Now, are your parents here?
    Master Gosselink. Yes. My dad is right there, and my mom is 
in Texas right now because she owns her own bead store and she 
is now doing a show out in Texas with my aunt.
    Senator Brownback. Do you have any statement or thoughts on 
the system, Mr. Gosselink?
    Mr. Gosselink. I do not have any prepared statements.
    I also want to thank you all for having us here today. I 
think it is a very, very important issue facing the kids in 
D.C. and across the country.
    I agree with basically what everyone has said, and I really 
hope that there is some change to both the foster parent and 
adoption system here in D.C. I think that too much, frankly, if 
I could speak personally for a moment, was just on me pushing 
to find perhaps a child that we could adopt. We were approved 
for adoption in June of 1996, and basically did not get a phone 
call or any invitation or any notice that a child might be 
available until we were informed of this Christmas party that 
Gordon had mentioned about 6 months later, and we met Gordon at 
the party, and after that, things went pretty quickly, but I 
was a little disturbed and worried as well and impatient. I 
basically was calling and asking for progress and updates on 
whether or not there were any kids that might be available and 
never having the call returned and never having any progress.
    So, I think DHS now, I really do believe, is completely 
overwhelmed with the current crisis. The social worker for the 
boy that we are currently in the process of adopting told me 
that he has 51 kids that he is now taking care of, and so I do 
not want to put too much blame on DHS. It is just really a 
situation that has gotten out of hand and really needs to be 
corrected.
    Senator Brownback. Thank you.
    You have very touching and very compelling stories and 
situations that you have been through, and I appreciate you 
coming forward.
    Senator Brownback. Gordon, thank you very much for 
testifying.
    Master Gosselink. Thank you.
    Senator DeWine. Do you have any idea how many different 
homes you have been in?
    Master Gosselink. I have been in at least five different 
homes. One, I stayed in for 4 years. The others, I just like 
stayed in them for a couple of months, and I have just been 
moving right along----
    Senator DeWine. OK.
    Master Gosselink. Because they were getting bad.
    Senator DeWine. Ms. Caruth, you have stated that it would 
be good to have a Court system here the Court wants to hear 
cases. What do you mean by that? I think I quoted you 
correctly. If I misquoted you, tell me, but you had a couple of 
comments about the Court system, and I am just curious on your 
perspective both as a lawyer, but also as someone who has been 
in the system. What do you mean by that?
    Ms. Caruth. My sense is that the courts--these cases are 
placed in between otherwise an incredibly heavy docket for most 
of the judges on Superior Court, and I am not certain, at least 
with my judge--and, again, I am one experience, and it is a 
limited experience--but my sense is that the judge does not 
necessarily know the law that well. And, also, the Court system 
is for adults, and my sense is that adult concerns are 
addressed by adults for adults, and there needs to be a branch 
of the Court of some sort, where the judges are really 
interested in the children and that is their focus and that is 
what they do every day.
    Senator DeWine. Forgive me for my ignorance of the system 
in the District, but that is not true in the District of 
Columbia?
    Ms. Caruth. I believe the judges have full dockets, full 
criminal dockets. They handle a wide variety of cases.
    Senator DeWine. I see.
    Ms. Caruth. And so the abuse and neglect case that comes up 
and especially once a child is in the system and just the 
monitoring of the case is sandwiched in between everything 
else.
    Senator DeWine. You talked about the guardian ad litem 
system and who is representing who. Do you know whether or not 
the District has a CASA system? Are you familiar with that 
term?
    Ms. Caruth. Yes. I believe that there is, although I have 
never seen it.
    Senator DeWine. It did not impact on you, then. It was not 
in your case.
    Ms. Caruth. Not at all.
    Senator DeWine. Thank you, Mr. Chairman.
    Ms. Caruth. And if I may?
    Senator DeWine. Sure.
    Ms. Caruth. In your question to Gordon, I would just like 
you also to note that Chantice also has been in five different 
living situations prior to coming with me.
    Senator DeWine. And Chantice is 3, right?
    Ms. Caruth. Exactly.
    Senator DeWine. Thank you very much. I thank both of you. I 
appreciate it.
    Thank you, Mr. Chairman.
    Senator Brownback. Yes. Thank you both very much. Ms. 
Caruth, for your diligence and determination, I appreciate 
that. Chantice, glad to have you here in the hearing room with 
us as well. Gordon, I hope you will come forward----
    Master Gosselink. Thank you.
    Senator Brownback [continuing]. So I can shake your hand, 
and when you are considering college, Kansas State University 
is a wonderful institution for you. You have a bright future, 
young man.
    Master Gosselink. Thank you.
    Senator Brownback. Thank you all very much.
    Ms. Caruth. Thank you.
    Senator Brownback. I would like to have our third panel 
come forward, if we could. We will get that panel situated.
    Thank you all, and thank you for being patient and also for 
letting us jump the one panel before you. We needed to get some 
adjustments because we went longer than we have intended to.
    Our final panel today is Ms. Ernestine Jones. She is the 
Court-Appointed Receiver for the District Child and Family 
Services; Judith Meltzer, who is here on behalf of the Court-
Appointed Monitor, the Center for the Study of Social Policy; 
and Thomas Wells, the Executive Director for the Consortium for 
Child Welfare.
    Ms. Jones, we will start off with you, and, goodness, you 
have a job in front of you. I am looking forward to hearing how 
you plan on tackling this.

 TESTIMONY OF ERNESTINE F. JONES,\1\ LaSHAWN GENERAL RECEIVER, 
         DISTRICT OF COLUMBIA CHILD AND FAMILY SERVICES

    Ms. Jones. Thank you. I hope my voice holds out. I have 
been battling a sinus infection, but, hopefully, it will work.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jones appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Subcommittee, I thank you 
for the opportunity to testify on reforming the adoption and 
foster care system in the District of Columbia.
    Today marks the 104th day of my tenure as the LaShawn 
General Receiver for Child and Family Services in the District 
of Columbia. I have given considerable thought and energy to 
the topic of this hearing. In the time allotted, I will first 
highlight the nature of the current challenges in the child 
welfare system nationwide.
    Second, I will present some of the reforms needed in the 
District of Columbia that will address many of the failures of 
the system.
    Third, I will provide general information about plans to 
reform the system in the District.
    Recent statistics on out-of-home care reveal that a growing 
number of children are entering out-of-home care nationally. 
There are currently 3,116 children in the adoption and foster 
care system in the District of Columbia. This represents a 
14.2-percent increase over last year. It is clearly documented 
that there is an adverse effect or an adverse relationship 
between the number of children in out-of-home care, the 
conditions under which families function, and the lack of 
societal supports available to assist them.
    In the District of Columbia, as in other urban 
jurisdictions, an array of problems, including poverty, 
substance abuse, inadequate housing, HIV/AIDS, teenage 
pregnancy and violence, all combine to account for the growing 
number of children needing out-of-home placements. It is no 
wonder that many families affected by some of society's most 
insidious ills find themselves without the material and 
psychological resources to provide basic care and nurture for 
their children.
    In the District, we are overwhelmed by the sheer number of 
children coming into care. Despite the focus on family 
preservation services and permanency planning, efforts of the 
Federal and State government, the number of children in care 
has significantly increased since the 1980's. Placement of 
children with relatives rather than in traditional foster homes 
has also been a growing trend in the 1990's due to the 
significant reduction of approved foster homes.
    As this population of kinship care increases, States are 
faced with the problem of developing a service delivery system 
to accommodate this new child welfare placement situation. 
Currently, child welfare systems must plan for the 
implementation of the Adoption and Safe Families Act, which is 
the Federal policy intended to promote adoption or other 
permanent arrangements for foster children who are unable to 
return home. States will be forced to examine legislative, 
procedural, and policy changes to accommodate the law. The 
timeliness of decisions concerning reunification, termination 
of parental rights, and adoption is vital to improving the 
system.
    In the District of Columbia, reforms are needed to ensure 
that all the responsible systems collaborate on behalf of the 
children in the child welfare system. As the Child and Family 
Services agency attempts to meet the demand of the Receivership 
by promoting and supporting professional standards of practice 
and effective policy initiatives, the involvement of key 
stakeholders is critical. We must coordinate our resources, 
create new policy and examine the mandates to determine if 
they, in fact, meet the needs of the families and children in 
the District.
    The Child and Family Services agency lacks the resources 
needed to adequately service the more recalcitrant issues of 
substance abuse, homelessness, domestic violence, and poverty, 
all of which exacerbate the abuse and neglect in dysfunctional 
families. Ninety percent of the States report difficulty 
recruiting and retaining social work staff, as is true here in 
the District. The consequences of an inadequate number of staff 
to provide and plan for supportive services to families and 
children undoubtedly include extended lengths of stay in the 
system and delays in reunification and adoption. Reforms are 
needed in the development of the service delivery system, as 
well as training for staff.
    As the General Receiver, I am committed to the development 
of a new Child and Family Services agency. Our mission is to 
protect and promote the health and well-being of the children 
of the District of Columbia through public and private 
partnerships focused on strengthening and preserving families 
with services that ensure cultural competence, accountability, 
and professional integrity.
    The first task was to develop a plan for restructuring the 
organization to accommodate a system of services that would 
lend itself to improved care of children in foster care and 
adoption, which we have completed and will be formally 
presented to staff in a few weeks.
    Second, we had to make some decisions about what needed to 
be done immediately to develop the child welfare system and 
improve the service delivery. To achieve these tasks, we have 
found it imperative to work closely with other systems of care 
and advocacy groups such as the courts, mental health, 
education, health providers, private agencies, consortium 
agencies, and collaboratives. Our immediate service goals are 
to implement a Kinship Care program through legislation and 
policy, to develop a comprehensive health care system for 
children who are under our care, to design a community-based 
system of care through the collaboratives, to plan for the 
implementation of the Adoption and Safe Families Act, and to 
design a new system of intake to include abuse and neglect. For 
each of these areas, we have now established a work group who 
are developing specific initiatives to implement the service 
program.
    I recognize that there are many hurdles to jump over in 
order to accomplish these tasks. I am pleased with the support 
and cooperation that I have received thus far. I will continue 
to equip and promote an improved child welfare system of care.
    Thank you for the opportunity to speak to the Subcommittee, 
and I solicit your continued support for reforming foster care 
in the District of Columbia. Thank you.
    Senator Brownback. Thank you, Ms. Jones. I appreciate that, 
and we will have some questions afterwards.
    Ms. Meltzer, welcome to the Subcommittee. We are delighted 
that you are here. The microphone is yours. You can either 
submit, if you would, your full statement into the record and 
summarize or you can read the statement, whichever you choose.
    Ms. Meltzer. OK. I think I will do an amalgam. Good 
morning, Mr. Chairman.
    Senator Brownback. Good morning.

 TESTIMONY OF JUDITH MELTZER,\1\ SENIOR ASSOCIATE, CENTER FOR 
                   THE STUDY OF SOCIAL POLICY

    Ms. Meltzer. Thank you for inviting me, and I appreciate 
the opportunity to testify and the fact that you are holding 
this hearing. For people who have been advocating for change to 
the child welfare system in the District for many years, it is 
important to have allies providing oversight from many 
different places, and this is very important.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Meltzer appears in the Appendix 
on page 92.
---------------------------------------------------------------------------
    I am with the Center for the Study of Social Policy, which 
is a non-profit policy research organization in the District, 
and we are the Court-Appointed Monitors of the District's child 
welfare system under LaShawn A. v. Barry. For those who do not 
know, LaShawn A. v. Barry was a landmark decision in 1991, and 
we continue now, since 1995, under a Court-Ordered 
Receivership.
    The children covered under the LaShawn decree are the 
approximately 3,000 children in foster care, and somewhere 
between 4,000 and 5,000 children who live with parents and 
relatives, but need child protection assistance because there 
has been substantiated child abuse or neglect.
    The problems that necessitated the LaShawn decree cover the 
entire system, ranging from the failure to properly respond to 
reports of child maltreatment to the failure to provide 
services to families when there is substantiated abuse or 
neglect, to the failures of the foster care and adoption 
programs.
    My written testimony speaks to these problems, but the 
testimony of the panel before, I think, speaks volumes to the 
kinds of problems that still persist today and is far more 
powerful than the numbers that I could give you.
    Unfortunately, the stories that we heard today are typical 
stories, and they reflect the fact that the system does not 
adequately serve either the families and children who are 
living at home with their families in the District, nor the 
children who come into foster care and the custody of the 
District.
    I think it is important in putting the current system in 
context to understand that the system today is better than it 
was in 1989 and 1991 when the Court suit was first brought. It 
is nowhere near where we need it to be, but there have been 
improvements, as hard as it is to believe, given what we have 
heard and what we know.
    The system was placed under Receivership in 1995, and Dr. 
Jerome Miller was appointed as the first Receiver. The Receiver 
has, by Court Order, all necessary authority to ensure full 
compliance with the Remedial Orders of the Court under LaShawn 
A. v. Barry.
    Dr. Miller's tenure as a Receiver coincided with a period 
in which much of District Government remained in both financial 
and management turmoil, which made it even more difficult to 
reform a system, which is inherently one of the most difficult 
systems in government to reform.
    After 20 months as Receiver, Dr. Miller resigned in June 
1997, having spearheaded some improvements, yet failing to 
achieve many of the essential management and programmatic 
reforms required by the Remedial Order.
    Progress was made in increasing the amount of Federal funds 
available to the District under the Title IV-E entitlement 
program and in establishing new ways of working with community 
partners.
    In particular, Dr. Miller was instrumental in seeding the 
development of the Healthy Families Thriving Communities 
Collaboratives, which now exist in eight neighborhoods of the 
District with high concentrations of child abuse and neglect 
cases. Several of these collaboratives have begun to work in 
innovative ways with the agency, and as Ms. Jones has just 
said, she is hoping to continue that work as she begins the 
reform of the service delivery system.
    Ms. Jones has now been on the job for 3 months, and she has 
devoted much of her energy to assembling a management team 
capable of reforming the system. She has been reorganizing to 
clarify functions and establish clear lines of accountability 
within the agency, and she is working closely with front-line 
workers, supervisors, and community partners to restructure the 
service delivery system, to better serve children and families 
and to come into compliance with the Remedial Order.
    As Court Monitor, we will be watching what goes on with the 
implementation over the next several years. We will be 
preparing quarterly reports for the Court and the public, and 
later this summer, we will conduct a case record review so that 
we can begin to assess what is happening in terms of children 
and families, not just relying on administrative statistics.
    I want to briefly use the rest of my time to highlight 
several areas in which I think there has to be emphasis in 
moving forward.
    First, the current system now divides responsibility for 
child abuse and neglect. As Ms. Jones alluded to, when the 
hotline receives a report of abuse, it is investigated by the 
police, and if a child remains in their home, even though there 
is abuse, they are served by a unit of the Superior Court 
called Court Social Services. If the child comes into foster 
care, they are served by the Child and Family Services 
Administration. If the report has to do with neglect, it is 
investigated by the Child and Family Services Administration 
and served by that agency. This is one of the only systems in 
the country that has this dual system, and it does not make 
sense. It is a historical artifact in the District, and it 
leaves too many children at risk. Keeping children safe 
requires very difficult decisions about when and how to 
intervene in families' lives, and the current system leaves 
opportunities for confusion and mistakes, which can and do 
result in harm to children.
    Second, the agency has to do a far better job at 
identifying at-risk children and families and making services 
and supports available to them before children are mistreated 
and before the only answer is to remove the children into 
foster care. Almost everybody who has testified here today has 
said the same thing.
    This is one of the areas where the work with the 
neighborhood Collaboratives is so essential. True reform of the 
system will require new relationships and sustained 
partnerships between the agency and the community, churches, 
schools, other District agencies, and neighborhood partners.
    Third, the agency has to devote resources to supporting a 
stable and qualified work force. In fact, the staffing of the 
agency is better today than it was in 1989 and 1991. However, 
turnover is still amazingly high, running probably about 50 
percent. Workers come to the agency right out of school. They 
receive little or no training. They are inadequately 
supervised, and many of them then leave in frustration.
    In order to do the important job of child protection, the 
agency is going to have to devote its resources to giving 
workers the skills they need to do their jobs and then to 
holding them accountable for performing them.
    Fourth, the agency needs to do a better job at developing 
and supporting a range of out-of-home placements for children 
who need to be removed from their homes. The earlier testimony 
about the fact that foster parents who are aggressive in 
advocating for the needs of their children are sometimes 
ostracized within the system is all too true. The agency has to 
recruit foster parents, train them, monitor them, but also 
support them and include them as partners in the parenting of 
children. They also have to move forward with establishing a 
functioning kinship care program, which is so essential to the 
care of many children in the District of Columbia.
    Finally, they have to develop a greater range of 
therapeutic options for the many children who are damaged 
because of their experiences in their families or their 
experiences in the foster care system.
    Fifth, the agency and the local Superior Court must engage 
in timely permanency planning so that timely decisions are made 
about whether children can go home, and if they cannot go home, 
they have to be moved toward adoption. This requires taking 
full advantage of the new Safe Families Act and developing new 
ways of concurrent planning with the agency and the legal 
system to make sure that children are expeditiously adopted.
    Currently, as we have heard, children stay in the foster 
care system in D.C. for 4 to 5 years before they move to 
adoption or are either emancipated from the system. We have to 
move that time frame way, way down.
    Finally, the agency is going to have to achieve a range of 
management and infrastructure improvements, which are the 
building blocks of a functional child welfare system. These 
include budget and fiscal management reforms; continued efforts 
at revenue maximization through Title IV-E and other 
entitlement programs; human resources management (meaning a 
functioning personnel system); the development of an accurate 
MIS which can provide good, accurate, and timely data on what 
is happening with children; contracting improvements so that 
when the agency wants to contract with private agencies they 
can do it efficiently and quickly, and the development of a 
vastly improved performance monitoring/quality assurance 
program.
    The District's child welfare system has been in crisis for 
too long, but there is no reason why it cannot be one of the 
best in the Nation. This is a relatively small system, and even 
though there is always the need for more resources, it is a 
relatively well-resourced system. It is our intent to work with 
Ms. Jones and her staff, as well as with the broader child 
advocacy community in the District to make this a reality 
within the next few years.
    Thank you.
    Senator Brownback. Thank you, Ms. Meltzer. We will have 
some questions and discussion for you after the final 
presentation by Mr. Wells.
    Thank you for joining us. You can read your testimony or 
you can summarize, whichever you choose.

 TESTIMONY OF THOMAS WELLS,\1\ EXECUTIVE DIRECTOR, CONSORTIUM 
                       FOR CHILD WELFARE

    Mr. Wells. I have a summary. Thank you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wells appears in the Appendix on 
page 139.
---------------------------------------------------------------------------
    Good morning, Mr. Chairman and Senator DeWine. Thank you 
for the opportunity to testify about our adoption and foster 
care system in the District. I am Tom Wells, and I am the 
Director of the Consortium for Child Welfare. We are the 
umbrella organization for the private non-profit family service 
agencies for the District, similar to the Children's Alliance 
in Kansas.
    In the District of Columbia, like Kansas, we are forging 
new public/private partnerships for providing services to 
children and families. We have moved some traditional functions 
of the foster care system into the private sector such as the 
Foster Care Placement Identification Referral Office.
    We have maintained a mix of foster care services with both 
the public and the private service providers. The distinction 
between the public agencies and private agencies is less 
important than the outcomes we hope to achieve related to 
keeping children safe and helping our families.
    We are strongly committed to locating more services for 
children and families in the neighborhoods where they live. 
Neighborhood-based services is a key ingredient to a new system 
which can keep more kids safe and more families healthy.
    We believe Ms. Jones, the new Receiver, is a capable expert 
in child welfare. We believe she is on the right track for 
reforming our child welfare system, but she does not have the 
authority to address one of the most important parts of our 
system which needs changing, the D.C. Superior Court.
    A major component required for a new child welfare system 
which helps children move on with their lives and find 
permanent and safe families would be a family court. Only 
Congress can create a family court for the city's children and 
families. Regardless of the Receiver's good efforts, we will 
not be able to create a system which keeps kids safe while 
moving them onto adoption quickly when necessary without it.
    Currently, the D.C. Superior Court is a court of general 
jurisdiction. Judges rotate through its divisions. Judges sit 
in the Family Division for 6 months. They retain the children's 
cases they have heard after they leave the division. It is 
possible for all 60 judges to have foster care cases. We will 
never be able to afford the number of government attorneys 
needed to cover all the judges' courtrooms where decisions are 
made as to the future plans for our children.
    There are over 3,000 children in the D.C. foster care 
system, 1,000 more than 5 years ago. Our kids remain committed 
wards more than twice as long as the national average. The 
District's child welfare system will not be able to move the 
children's cases to permanency without centralizing the courts' 
functions into one family court. Without a consistent group of 
judges trained in the laws related to child welfare, we will be 
unable to implement the new Federal Adoption and Safe Families 
Act recently passed by Congress. We need your help in getting a 
family court for the District of Columbia. The reform of the 
District of Columbia's child welfare system will not be 
completed without it.
    Thank you.
    Senator Brownback. Thank you very much, Mr. Wells.
    Mike and I may bounce back and forth here. Let us run a 
clock on this so that each of us do not go to long because I 
have a lot of questions, and I am sure Mike does as well.
    To start off with, this system has been in Receivership now 
since, what, May of 1995?
    Ms. Jones. Yes.
    Senator Brownback. Three Receivers during that period of 
time? Just two Receivers since that period of time that have 
been in place? It looks as if things have deteriorated during 
the Receivership. Have plans just--and I am starting backing up 
from ground zero on this, but I have got a lot of questions and 
maybe you are just going to have to educate me on this. Why 
have not improvements been made during this Receivership? The 
court has been there. The court has been on top of it. The 
court has been monitoring it, and it does not appear that 
things have changed substantially.
    Ms. Meltzer. If I could respond, when the system was put in 
Receivership in May of 1995, it was about the same time that 
the Congress was considering the Control Board in place. So, at 
that point in time, basically, the entire infrastructure of the 
District was falling apart. Bills were not being paid. Staff 
were not being hired. Things were a mess. Consequently, a lot 
of the reforms that had been achieved under the Court Order in 
1993 and 1994 fell apart. The early progress was really 
stalled.
    The selection of the Receiver was not without problems, and 
the person who was selected as a Receiver put most of his 
emphasis on the development of the relationships necessary for 
a community-based system and was working on seeding the 
development of the Collaboratives. Unfortunately, he paid 
little attention to the basic management and infrastructure 
building blocks that had to be put in place.
    When the first Receiver was appointed, we (CSSP) withdrew 
as monitors because we did not think that you needed to have a 
Court-Appointed Monitor overseeing a Court-Appointed Receiver. 
We thought it was redundant.
    When it became clear that the Receiver, for all of his 
vision creativity, was not paying attention to the management 
reforms that had to occur, we were reappointed by the Court, 
and that led to a process for the appointment of a new 
Receiver. So the fact is, that with the exception of a few 
areas of progress between 1995 and 1997, many of the problems 
that were there in 1995 are there today.
    Senator Brownback. Is the system the same, essentially?
    Ms. Meltzer. The basic system is the same. The Receivership 
Order gave the Receiver considerable authority to both change 
the system, deal with the problems of the contracting system, 
the personnel system, but the Receiver who held that post did 
not use those authorities to restructure the system.
    Senator Brownback. So we had a failed system by Court 
decree that was not serving the children, and a Receiver that 
was put in place then that you are saying just did not use the 
authority that they needed to take the actions to change the 
system?
    Ms. Meltzer. Yes. I would say for a period of time, he was 
unable to because he was trying to work cooperatively with the 
District Government--at a time when the District Government was 
both unwilling and unable to work cooperatively with the 
Receiver. That was probably true for the first year, but for 
the second year of that Receivership, not much progress was 
made on the basic problems.
    Senator Brownback. OK.
    Ms. Jones. Could I add just one other thing to that? One of 
the other factors that I believe was a major problem with that 
process is that when the Receivership was created, what you had 
happen was a division of a larger agency was pulled out from 
under the umbrella agency. Once that happened, the only way you 
could create an organization that could respond to whatever was 
needed then you had to reconstruct an agency that could be 
responsive to what was happening, whether it was program-
related or operational.
    The basic infrastructure that was there when it was a part 
of an umbrella agency no longer existed, and so you did not 
have in place the kinds of operational capabilities to handle 
things that have to happen in order to implement whatever you 
want to do. Without that, you had no basis on which you could 
address hiring staff especially if you do not have in place a 
personnel system that allows you to do recruitment----
    Senator Brownback. Right.
    Ms. Jones [continuing]. Hiring the people, getting them in, 
getting them trained, if you have an individual who is running 
around trying to just react to put this person in. What you end 
up with is the inability to be able to adequately respond, to 
assist them. So you did not have an infrastructure in the 
agency.
    Senator Brownback. Ms. Jones, you are now put in charge of 
a failed system by Court determination, by factual information, 
you see here, and some of the things that is most troubling to 
me is that a child on average is spending 5 years in this 
foster care system, and I do not know how many homes bouncing 
to and from, and two-thirds of them graduate out of the system 
or grow too old in the system, rather than are placed.
    Have you had the time to come up with a plan and say--``OK, 
my objective is going to be for the average child to be placed 
within 1 year in this system and here is how I am going to do 
it?'' Have you had time to come up with those solutions?
    Ms. Jones. No, I have not. What I have done in the first 3 
months, the two principal things I focused on was, first, I had 
to assemble leadership in the agency that was capable of taking 
the respective problem areas if you would let me define it that 
way and laying out a plan so that we could, in fact, bring 
about change.
    So what I did initially was to go out and try and find 
good, competent, experienced people who know what it takes to 
move a child in, move them through, and out of the system. That 
is not to say that you do not have staff there who could carry 
it out once you give them the direction and set in place 
policies and procedures because one of the things I must say is 
that we have identified very easily and very quickly that there 
are capable, competent people there, but it is like anything 
else. When you are trying to move a ship through the water, you 
have got to have somebody guiding and somebody directing which 
way it is going. Otherwise, you have competing forces. So that 
was the first thing.
    The second thing was I needed to establish an agency that 
was constructed in a way that you could assign responsibility 
for those respective areas, you could hold people accountable, 
and that is what we have done in restructuring the agency. 
Essentially, that is what we have done. I guess I have said I 
did not try and reform what was there. We have laid out a plan 
to build a new agency, and we are pulling into that agency the 
pieces that work, and the pieces that did not work, we are 
leaving out. That is essentially what we have done.
    Now, our next step is to, in fact, lay out that plan that 
will address specifics with regard to the programmatic 
deficiencies that exist in the agency, but now I have people 
who I can hold accountable for doing those things, who can, in 
fact, set those things in motion, starting with just getting 
legislation in some of the areas.
    Senator Brownback. And you will set as your objective, ``We 
are going to have this child placed in a home''----
    Ms. Jones. Most definitely.
    Senator Brownback [continuing]. ``Within 1 year''?
    Ms. Jones. Well, depending on what the program area is, 
but, yes, one of the key things that we are doing is changing 
our system to accommodate the new legislation.
    I, quite frankly, want our targeted goals to be higher than 
what we established as a part of the congressional mandate. 
When you have a system where you have got larger numbers of 
children already awaiting to be adopted, you do not want to 
move that incrementally in small steps. Once you get the system 
so it works, then you want to move children as quickly as 
possible.
    Yes, we are moving to outcome-focused services, no matter 
whether it is placement, permanency placement, return home, 
preventive service, because I believe very strongly in the 
principle of, in fact, working with these families so that we 
ensure that these children do not have to come in care, and 
quite frankly, we have to provide the same assurance for 
children when they are adopted. The same kinds of problems that 
a family has who has their own job are going to be experienced 
by an adopted family. They have problems, that we do not want 
to forget--I think the absolute worst thing that can happen is 
to have a child adopted and then have that child return to us. 
We do not want that to happen either. That is all the way to 
the other side.
    So we believe that it is important to build in services at 
the community level, no matter where the child is living, so 
that you have the resource to keep that child with that family.
    Senator Brownback. Senator DeWine?
    Senator DeWine. Mr. Chairman, thank you very much.
    Mr. Wells, I am working on legislation to create the family 
court that you described, and I would welcome comments not just 
from you, but from the other members of the panel who would 
like to work with you in regard to any concerns that you would 
have as to how we do that. You are certainly three experts in 
this field who really understand what is going on in the 
District, and as you all have pointed out and as our previous 
panel pointed out, we want input from the District on this. We 
want input from people who are in the trenches and who have to 
deal with it every day. So I would just invite your input to me 
later on, and also anybody who is in the audience, we would 
invite your input very much.
    Let me turn, if I could, to Ms. Meltzer, to a statement 
that you made in your written statement, and I would like to 
just read it and make sure I understand what it means and make 
sure how that system works. You point out on page 3, ``. . . 
the current system . . . divides responsibility for child abuse 
and neglect . . .,'' and you say it must be changed. ``Reports 
of child abuse are now investigated by the police and unless 
children are placed in foster care, child protection services 
for these children are provided by a unit of the Superior Court 
called Court social Services. Reports of child neglect are 
investigated by the Child and Family Services Administration . 
. . and those children and families are served by CFSA social 
workers.''
    I am not aware of any other jurisdiction that has that dual 
system. Maybe there are some, but----
    Ms. Jones. No.
    Ms. Meltzer. None.
    Ms. Jones. There are none.
    Senator DeWine. Ms. Jones, I would invite your comment as 
well as Mr. Wells on this. What is your comment about that 
statement? Do you agree it is a problem, and why is it a 
problem? I think I know, but I would be curious to know your 
comments. I mean, does this pose a problem? It just seems to me 
to be a very strange division, but does it pose a problem?
    Ms. Jones. Yes, it does.
    Senator DeWine. OK.
    Ms. Jones. And we have taken it a step further. We are now 
working to, in fact, incorporate into the legislative package--
we are in the process--let me lay it out--of rewriting----
    Senator DeWine. Right.
    Ms. Jones [continuing]. The entire child welfare 
legislation, the legislative code that governs child welfare in 
the District. Incorporated into that will be the reconnection 
of child abuse and neglect under the same agency, but rather 
than do things piecemeal, what we are trying to do is look at 
the whole picture you have, the front end which is the 
investigative piece. Then you have the process that goes 
through the Court, which is another component that will make 
the system either work or not work. Then you have what happens 
to keep the child at home if, in fact, you can, and then you 
have the accelerated process to move a child into permanency if 
the decision is to remove that child, and then you have support 
services that will enable that child to stay where you take 
them. So we have already begun that process.
    Clearly, I could take all day to tell you the problems that 
are created when you have to coordinate two services that are 
intertwined. Neglect can lead to abuse, and abuse can lead to 
neglect, and sometimes it is a judgment call as to which way it 
is. When you have two different agencies making those 
judgments, you almost always are going to have differences. 
Quite frankly, the big issue is what happens to the one that 
nobody decides anything about. Nobody addresses that. When you 
have it in one location, you have one place that is 
accountable, no matter what happens with that family. So we 
have already started that.
    Senator DeWine. Anybody else?
    Mr. Wells. Just that when it was created in 1977, it was a 
good idea, but they never came back to revisit it, and so it 
just was never fixed.
    I think that one of the outcomes or one of the things that 
happens when we do it this way that is bad is--to go back to 
the testimony about Kansas, one of the things that Kansas is 
teaching us, it is creating outcomes that we want for children, 
rather than just looking at the process, like how many social 
workers and all the different hearings and such, but to what 
end. If we are going to move to an outcome-based system to say 
that our children are not going to be in foster care but this 
long, we are going to move them to adoption or reunification, 
more of an outcome-based system that I think that Congress 
envisioned with the new act, that with the bifurcated system, 
the Receiver cannot set outcomes that cover all our children 
that come into the system. So it is a difficult accountability 
problem if we move to an outcome-based system.
    Senator DeWine. Let me follow up the question that I asked 
the previous panel. Does the District have any kind of a CASA 
system or a version of that?
    Ms. Meltzer. CASA?
    Mr. Wells. CASA. Yes, we do.
    Ms. Meltzer. Yes.
    Ms. Jones. Yes.
    Mr. Wells. And the Director, I believe, is here, but, yes, 
we do.
    Senator DeWine. How does that work?
    Senator Brownback. Please identify yourself for the record.
    Ms. Radd. I am Anne Radd. I am the Director of the CASA 
program, and I think that our difficulty in the District in a 
single sentence is that not every child has the CASA. It is 
left to the discretion of the principals in the case as to 
whether they ask for a CASA; that we are asked for a CASA in 
those cases where a principal says I think a CASA can serve. We 
are not automatically entered into a case.
    Senator DeWine. Do you have any idea, or, Ms. Jones, what 
percentage of these cases CASA is involved in?
    Ms. Jones. It is small, I would say. I do not have an exact 
number for you.
    Senator DeWine. Relatively small.
    Ms. Jones. But I would say it is a small number.
    Ms. Radd. We have 300 cases, 300 children.
    Ms. Meltzer. It is 10 percent.
    Ms. Jones. So it is about 10 percent.
    Senator DeWine. What is your ability? I mean, are you out 
of volunteers? Are you out of folks who can do this?
    Ms. Radd. We are constantly--we do drives. We have about, I 
would say, 100 CASA's a year. That is what our experience has 
been.
    Senator DeWine. Ms. Jones, do you have any comment about 
the use of CASA?
    Ms. Jones. Well, no. I come originally from the State of 
Maryland where we used them very effectively, and, no, I 
certainly believe that--one of the things that I have also been 
doing is reestablishing our working relationships with a lot of 
the community sup- 
port groups, and they certainly are among the groups that we 
want to work with.
    Senator DeWine. Good.
    Mr. Chairman, thank you.
    Senator Brownback. Thank you, Senator DeWine.
    Ms. Jones, you have a tough job ahead of you, and we want 
to help you in any way that we can in improving the numbers in 
this system, and I know you want to get them down.
    Could you identify for me what would be the three to five 
top measurements of progress that you would have as to whether 
or not you are getting the system improved and working the way 
you would like to see it done? What are your top priorities? 
When you say this, get to this point, what would be your top 
ones?
    Ms. Jones. Well, I am not prepared to give you what those 
would be in terms of programmatic outcomes, specific numbers, 
but, certainly, an indicator would be the reduction in the 
length of time that a child has stayed in the system. 
Certainly, a reduction in the numbers of children coming into 
the system is an indicator, but what I am not prepared to say 
to you is specifically which ones, what those numbers might be, 
against the system we have. That is, however, one of the things 
we will be addressing in developing the next phase, which is to 
put together our programmatic reforms for the District child 
welfare system.
    I would say later in this year, I would be prepared to 
share with you more specific information about exactly what we 
want to achieve because we are going to address specifics. The 
only way we can begin to change the climate, the way people 
view the program--you can achieve a self-fulfilling prophecy. 
You beat it down to the point where people finally give you 
your wish, and I am trying to turn it the other way and say let 
us move it up so that we achieve the other, and I believe you 
do that by targeting things that will allow you to achieve 
major accomplishments that speak to a new way of viewing how we 
deliver the services. So we are going to be doing that. When I 
am saying that, I am not talking 6 months out. I mean, my 
restructuring charge to the group was we are going to get this 
done in 3 months. I have been there 3 months. We have 
redesigned the agency. We are now just putting people in the 
boxes, and we are using that as an opportunity to move people 
around, get fresh thinking, unearth some of the inertia. I will 
put it like that. We have achieved that.
    My next goal is that we are going to put together a reform 
plan for the program, and I expect to reconvene that body by 
early May. We will have a plan to synchronize so that we can 
tie it to other changes that are occurring in the District with 
the budget process. I mean, you cannot do these things without 
tying them to money.
    Senator Brownback. Do you have sufficient record systems in 
place, do you think, to track what is happening to children in 
the system?
    Ms. Jones. No, but high on my list--and I was very 
fortunate in being able to recruit someone who is an excellent 
person for helping us to achieve the automation, to get our 
automated system up. I have kind of pulled out five major areas 
we targeted on, improving the fiscal system--and I was 
fortunate in getting a very experienced person at doing that 
because it takes a special skill to understand not just 
managing money, but to understand the various Federal programs.
    Just to hire a fiscal person does not achieve what we have 
to achieve. So I have looked hard, and I guess if I were to say 
to you what I feel most happy about now, it is that I have been 
able to assemble in a very, very short time--and I surprised 
myself--what I consider to be probably one of the best teams of 
talent that you could get. I have a woman who is a national 
expert in child abuse and neglect in Beverly Jones. I have a 
woman who pretty much wrote the book on kinship care in Sondra 
Jackson. I have a person who has more than 15 years of 
experience working with Federal and State financing in Milton 
Grady. I hired a person who knows both Federal and State 
operations with systems in Brenda Sligh. I have a person who 
understands District personnel actions and can help me not only 
recruit, but recruit so we can get people into the system 
quickly because many of our employees, the workers, are still 
on the District payroll, even though I have administrative 
responsibility for them, in Mary Montgomery.
    So I have good solid leadership. They do not come much 
better than the people that we have been able to recruit.
    Senator Brownback. I am glad to hear that you are concerned 
about the records of the children in the system because in our 
preparation for this hearing, we were attempting to ascertain 
just the number of children.
    Ms. Jones. Right.
    Senator Brownback. And we were having difficulty even 
finding somebody that could tell us this is how many kids we 
have in the system, which seemed to me to be a pretty basic 
kind of a number that one would want to have. If you need any 
help, I think there are a lot of people pretty good at tracking 
folks. I hope you can do that.
    You have identified problems that you have had. What about 
linkages with privatizing a good portion of the services? You 
have had some limited experience, but a much broader set as a 
way of bringing in more hands and hearts into this system to 
help you out.
    Ms. Jones. The District uses the private sector heavily to 
deliver our services. I would say right now about half of our 
services are provided through a network of private providers. 
Tom Wells represents the Consortium of private agencies that we 
use to deliver a number of the services.
    What I would like to move to is to--one of the things that 
I think Kansas has done well and it is something that we have 
already started talking about--I believe we would get a better 
ultimate result if we could get providers in certain areas 
working as a team. So, in other words, rather than our having 
to contract with 10 providers who do therapeutic care, rather 
than have individual contracts, that we could establish more 
consortiums of provider services, which would enable us--enable 
them even to capitalize on the benefits of working as a pool.
    Where we want to start with that is in health care. We are 
right now putting together a request for proposals, which I 
want to go out with in the District community to get a single 
health care provider for foster children, children under our 
care and custody.
    Now, that could end up being a conglomerate or consortium 
of different providers, but I want to be able to package the 
whole thing. I want diagnostic assessments. I want mental 
health. I want diagnostic evaluations for developmental 
problems. I want primary health care.
    Right now health care is all over the place. We get it. I 
mean, it depends on where the foster parent is, where they 
live, and trying to garner that to ensure that every child gets 
access to whatever the services are is the sole product of a 
worker and their ability to pull all of that together.
    What I want to see is a delivery system that enables us 
to--we say these are the health care needs of these children, 
and this is what every child should at least have the 
opportunity to get, and for us to ensure that the quality of 
what they get is consistent. It is very difficult to monitor 
that when you could have 10 providers doing health care.
    Senator Brownback. Will you be considering the sort of 
broad-based contracting, bidding out along the line of what 
many other States are doing? It strikes me you are going to 
have to get a lot of other players into this system if you are 
going to move your timelines down to the dramatic degree that 
it would appear to most needs to take place for the kids. You 
are going to have to get more hearts and hands in here.
    Ms. Jones. We have a fairly large provider service network 
in the District.
    Senator Brownback. I understand that, but it had not 
worked.
    Ms. Jones. Well, let us say we have the resources. What we 
need is a better way of managing the utilization of those 
resources, and that is where I am headed now is to try and use 
what we have better and broaden the network of available 
resources in the areas where we do not have enough.
    Senator Brownback. I hope you are right on that, although 
it has been my experience that if you have got good people in a 
failed system, then the answer is not necessarily the people 
are wrong. It is the system has failed, and you are going to 
have to focus radically at the system, radically at it, and if 
you just hedge around the edges, well, you may improve this 
good person's efficiency from 35 to 43 percent, but you still 
have not gotten your timelines down from 5 years in foster care 
to 1 year. You have just got to go to radical departures 
because the system does not serve the people. The system does 
not serve the children.
    So I would hope you would look very boldly in these areas, 
recognizing that any time you make bold changes, you are 
probably subject to more criticism and you probably put your 
job on the line a little more, but when a system is so 
radically failed, tinkering does not do it, and even 15 to 20 
percent changes or alterations do not do it. You have got to go 
to new systematic approaches and be willing to recognize that, 
even with those, you are going to have failures. You are going 
to have to be willing to, once you make the big changes say, 
``Well, OK, this did not work. So we are going to have to 
change that.'' I do hope you will be willing to look at those.
    Ms. Jones. Most definitely. In fact, that is part of what 
we are looking at are what are the new kinds of--or more 
creative services that we can, in fact, utilize, but we need to 
plan fully do that, and I think the Secretary alluded to that 
in looking at their plan. You do need to lay out a plan for 
yourself on what are those dramatic changes that you want to 
make, and I am sure we are going to end up with some very 
different approaches than what has been used here historically 
in the District. And there is no doubt there will be some folks 
that may be upset. I mean, one of the things that I have said 
to people, I am not in business to make sure every provider 
gets as job. The question is what are the services these 
children need and who are the best providers and what is the 
best approach to use to address those--the children's needs. We 
are not here to maintain the agency that has been used, and 
that is a dramatic change.
    Senator Brownback. I have got some other questions just on 
knowledge holes that we have not been able to dig up that I 
would like to submit to you in writing, and if you could get 
back to us in a couple of weeks on those, I would sure 
appreciate it----
    Ms. Jones. Most definitely.
    Senator Brownback [continuing]. As we try to build that up. 
I would like to have some ongoing dialogue between you and our 
staffs back and forth just to be able to see how things are 
going.
    I do not want--and I cannot micro-manage, but I do hope 
that the goals can be set aggressively and then the systems be 
put in place realistically and boldly to be able to make those 
changes.
    Ms. Jones. Thank you.
    Senator Brownback. Senator DeWine, do you have anything 
further?
    Senator DeWine. No, Mr. Chairman. I just want to thank you 
again for holding this hearing and thank our panel, and frankly 
all of our panelists. I think it has been a very, very helpful 
hearing, and very insightful. Thank you.
    Ms. Jones. Thank you.
    Senator Brownback. It has been. Thank you very much, all of 
you.
    Ms. Meltzer. Thank you.
    Senator Brownback. We all have the needs of the child in 
heart, and God's speed, we are going to need it.
    Ms. Jones. Thank you.
    Mr. Wells. Thank you very much.
    Senator Brownback. The hearing is adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee adjourned.]
                            A P P E N D I X

                              ----------                              


[GRAPHIC] [TIFF OMITTED] TH461.001

[GRAPHIC] [TIFF OMITTED] TH461.002

[GRAPHIC] [TIFF OMITTED] TH461.003

[GRAPHIC] [TIFF OMITTED] TH461.004

[GRAPHIC] [TIFF OMITTED] TH461.005

[GRAPHIC] [TIFF OMITTED] TH461.006

[GRAPHIC] [TIFF OMITTED] TH461.007

[GRAPHIC] [TIFF OMITTED] TH461.008

[GRAPHIC] [TIFF OMITTED] TH461.009

[GRAPHIC] [TIFF OMITTED] TH461.010

[GRAPHIC] [TIFF OMITTED] TH461.011

[GRAPHIC] [TIFF OMITTED] TH461.012

[GRAPHIC] [TIFF OMITTED] TH461.013

[GRAPHIC] [TIFF OMITTED] TH461.014

[GRAPHIC] [TIFF OMITTED] TH461.015

[GRAPHIC] [TIFF OMITTED] TH461.016

[GRAPHIC] [TIFF OMITTED] TH461.017

[GRAPHIC] [TIFF OMITTED] TH461.018

[GRAPHIC] [TIFF OMITTED] TH461.019

[GRAPHIC] [TIFF OMITTED] TH461.020

[GRAPHIC] [TIFF OMITTED] TH461.021

[GRAPHIC] [TIFF OMITTED] TH461.022

[GRAPHIC] [TIFF OMITTED] TH461.023

[GRAPHIC] [TIFF OMITTED] TH461.024

[GRAPHIC] [TIFF OMITTED] TH461.025

[GRAPHIC] [TIFF OMITTED] TH461.026

[GRAPHIC] [TIFF OMITTED] TH461.027

[GRAPHIC] [TIFF OMITTED] TH461.028

[GRAPHIC] [TIFF OMITTED] TH461.029

[GRAPHIC] [TIFF OMITTED] TH461.030

[GRAPHIC] [TIFF OMITTED] TH461.031

[GRAPHIC] [TIFF OMITTED] TH461.032

[GRAPHIC] [TIFF OMITTED] TH461.033

[GRAPHIC] [TIFF OMITTED] TH461.034

[GRAPHIC] [TIFF OMITTED] TH461.035

[GRAPHIC] [TIFF OMITTED] TH461.036

[GRAPHIC] [TIFF OMITTED] TH461.037

[GRAPHIC] [TIFF OMITTED] TH461.038

[GRAPHIC] [TIFF OMITTED] TH461.039

[GRAPHIC] [TIFF OMITTED] TH461.040

[GRAPHIC] [TIFF OMITTED] TH461.041

[GRAPHIC] [TIFF OMITTED] TH461.042

[GRAPHIC] [TIFF OMITTED] TH461.043

[GRAPHIC] [TIFF OMITTED] TH461.044

[GRAPHIC] [TIFF OMITTED] TH461.045

[GRAPHIC] [TIFF OMITTED] TH461.046

[GRAPHIC] [TIFF OMITTED] TH461.047

[GRAPHIC] [TIFF OMITTED] TH461.048

[GRAPHIC] [TIFF OMITTED] TH461.049

[GRAPHIC] [TIFF OMITTED] TH461.050

[GRAPHIC] [TIFF OMITTED] TH461.051

[GRAPHIC] [TIFF OMITTED] TH461.052

[GRAPHIC] [TIFF OMITTED] TH461.053

[GRAPHIC] [TIFF OMITTED] TH461.054

[GRAPHIC] [TIFF OMITTED] TH461.055

[GRAPHIC] [TIFF OMITTED] TH461.056

[GRAPHIC] [TIFF OMITTED] TH461.057

[GRAPHIC] [TIFF OMITTED] TH461.058

[GRAPHIC] [TIFF OMITTED] TH461.059

[GRAPHIC] [TIFF OMITTED] TH461.060

[GRAPHIC] [TIFF OMITTED] TH461.061

[GRAPHIC] [TIFF OMITTED] TH461.062

[GRAPHIC] [TIFF OMITTED] TH461.063

[GRAPHIC] [TIFF OMITTED] TH461.064

[GRAPHIC] [TIFF OMITTED] TH461.065

[GRAPHIC] [TIFF OMITTED] TH461.066

[GRAPHIC] [TIFF OMITTED] TH461.067

[GRAPHIC] [TIFF OMITTED] TH461.068

[GRAPHIC] [TIFF OMITTED] TH461.069

[GRAPHIC] [TIFF OMITTED] TH461.070

[GRAPHIC] [TIFF OMITTED] TH461.071

[GRAPHIC] [TIFF OMITTED] TH461.072

[GRAPHIC] [TIFF OMITTED] TH461.073

[GRAPHIC] [TIFF OMITTED] TH461.074

[GRAPHIC] [TIFF OMITTED] TH461.075

[GRAPHIC] [TIFF OMITTED] TH461.076

[GRAPHIC] [TIFF OMITTED] TH461.077

[GRAPHIC] [TIFF OMITTED] TH461.078

[GRAPHIC] [TIFF OMITTED] TH461.079

[GRAPHIC] [TIFF OMITTED] TH461.080

[GRAPHIC] [TIFF OMITTED] TH461.081

[GRAPHIC] [TIFF OMITTED] TH461.082

[GRAPHIC] [TIFF OMITTED] TH461.083

[GRAPHIC] [TIFF OMITTED] TH461.084

[GRAPHIC] [TIFF OMITTED] TH461.085

[GRAPHIC] [TIFF OMITTED] TH461.086

[GRAPHIC] [TIFF OMITTED] TH461.087

[GRAPHIC] [TIFF OMITTED] TH461.088

[GRAPHIC] [TIFF OMITTED] TH461.089

[GRAPHIC] [TIFF OMITTED] TH461.090

[GRAPHIC] [TIFF OMITTED] TH461.091


                                  <all>
</pre></body></html>
